<html>
<title> - ADDRESSING ETHNIC TENSION IN KYRGYZSTAN</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                       ADDRESSING ETHNIC TENSION
                             IN KYRGYZSTAN

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 22, 2011

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 112-1-6]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Available via http://www.csce.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-719 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          








            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE
                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,   BENJAMIN L. CARDIN, Maryland, 
Chairman                            Co-Chairman 
JOSEPH R. PITTS, Pennsylvania       SHELDON WHITEHOUSE, Rhode Island  
ROBERT B. ADERHOLT, Alabama         TOM UDALL, New Mexico
PHIL GINGREY, Georgia               JEANNE SHAHEEN, New Hampshire 
MICHAEL C. BURGESS, Texas           RICHARD BLUMENTHAL, Connecticut  
ALCEE L. HASTINGS, Florida          ROGER F. WICKER, Mississippi    
LOUISE McINTOSH SLAUGHTER,          SAXBY CHAMBLISS, Georgia   
New York                            MARCO RUBIO, Florida   
MIKE McINTYRE, North Carolina       KELLY AYOTTE, New Hampshire      
STEVE COHEN, Tennessee                   
                           

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
               MICHAEL C. CAMUNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  [ii]




















                       ADDRESSING ETHNIC TENSION

                             IN KYRGYZSTAN

                              ----------                              

                             June 22, 2011
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Benjamin L. Cardin, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................    10

                                 MEMBER

Hon. Trent Franks (R-8), a Member of Congress from the State of 
  Arizona........................................................    14

                               WITNESSES

Dr. Kimmo Kiljunen, Chairperson, Independent International 
  Commission of Inquiry into the Events in Southern Kyrgyzstan in 
  June 2010......................................................     3
His Excellency Muktar Djumaliev, Ambassador of the Kyrgyz 
  Republic to the United States..................................    16
Dr. Martha Brill Olcott, Senior Associate, Russia and Eurasia 
  Program, Carnegie Endowment for International Peace............    23
Dr. Alisher Khamidov, Professorial Lecturer, Johns Hopkins 
  University (SAIS)..............................................    27

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    38
Prepared statement of Hon. Benjamin L. Cardin....................    40
Biography of Dr. Kimmo Kiljunen..................................    41
Prepared statement of Amb. Muktar Djumaliev......................    44
Prepared statement of Dr. Martha Brill Olcott....................    47
Prepared statement of Dr. Alisher Khamidov.......................    51

                                 [iii]

 
                       ADDRESSING ETHNIC TENSION
                            IN KYRGYZSTAN

                              ----------                              


                             June 22, 2011

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 1:30 p.m. in room 2118, Rayburn 
House Office Building, Washington, DC, Hon. Christopher H. 
Smith, Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Benjamin L. Cardin, Co-Chairman, Commission on Security and 
Cooperation in Europe.
    Member present: Hon. Trent Franks (R-8), a Member of 
Congress from the State of Arizona.
    Witnesses present: Dr. Kimmo Kiljunen, Chairperson, 
Independent International Commission of Inquiry into the Events 
in Southern Kyrgyzstan in June 2010; His Excellency Muktar 
Djumaliev, Ambassador of the Kyrgyz Republic to the United 
States; Dr. Martha Brill Olcott, Senior Associate, Russia and 
Eurasia Program, Carnegie Endowment for International Peace; 
and Dr. Alisher Khamidov, Professorial Lecturer, Johns Hopkins 
University (SAIS).

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order, and I want to 
welcome all of you to this hearing on addressing ethnic 
tensions in Kyrgyzstan, the only country in Central Asia where 
street protests have in recent years twice led to changes in 
government. Kyrgyzstan is also the only State in Central Asia 
which has experimented with a parliamentary form of a 
government, so it stands out in those two very important ways.
    But the focus of today's hearing is the terrible ethnic 
violence that erupted one year ago this month, shortly after 
the April revolution that toppled former President Bakiyev, and 
what the Government of Kyrgyzstan should do to address it. In 
June 2010, ethnic Kyrgyz and ethnic Uzbeks clashed in the 
southern region of Osh. By the time the worst was over, 470 
people were dead, and over 400,000 displaced. Thousands of 
homes and businesses were destroyed. The clashes drew a dark 
shadow on the hopes engendered by the ouster of the corrupt 
Bakiyev government.
    To its credit, the Government of Kyrgyzstan requested an 
international investigation into the events, and I certainly 
commend President Otunbayeva for that initiative. A response to 
the Independent International Commission of Inquiry into the 
Events of Southern Kyrgyzstan in the June of 2010 was formed.
    It released its report last month. And our first witness is 
Kimmo Kiljunen, who chaired that commission.
    And it is an excellent report. I am deeply concerned by its 
conclusions. Especially alarming is the commission's judgment 
that the systematic nature of some acts committed last June by 
ethnic Kyrgyz against ethnic Uzbeks, including patterns of 
murder, rape, and brutal ethnic persecution, could qualify as 
crimes against humanity. It remains to be seen whether they 
will be found so in a court of law and whether or not a 
competent court might take on the case. In any case, such a 
judgment by such a credible commission of investigation must be 
taken seriously, and the Government of Kyrgyzstan must 
investigate these crimes seriously and hold those responsible 
to account.
    I'm also disturbed that the security forces apparently were 
complicit in the attacks, not only by failing to respond 
adequately to stop the violence but, according to the 
commission's report, in some cases even distributing weapons to 
ethnic Kyrgyz or driving the armored personnel carriers which 
penetrated the defenses of ethnic Uzbek neighborhoods.
    Unfortunately, so far the Government has brought more cases 
against ethnic Uzbeks, who make up the majority of the victims, 
and there is credible evidence that torture was used to extract 
confessions from these ethnic Uzbeks. This also must be 
investigated--including the case of human rights defender 
Azimzhan Askarov, who has been sentenced to life imprisonment, 
despite his credible claim that he was tortured.
    Just as disturbing is the ongoing serious human rights 
abuses against ethnic Uzbeks, including torture, arbitrary 
arrest and detention, and unfairly conducted trials, which also 
have been covered in detail by the report. Because the police 
force is deeply involved in these abuses--it is almost entirely 
made up of Kyrgyz--victims feel that they have nowhere to turn. 
Ethnic Uzbek businessmen and migrant workers returning from 
Russia are particular targets for extortion. Even with the 
understandable reluctance of victims to report abuses, the 
Office of the High Commissioner of the UNHCR has documented 
some 680 cases of arbitrary arrest for ransom since June of 
2010, as well as 70 cases of torture in detention. Ongoing 
human rights violations must stop immediately, and those 
responsible need to be brought to justice.
    President Otunbayeva has said many things--many of the 
right things in recent days. While laying a wreath in Osh to 
commemorate the one-year anniversary of the violence, she 
called for interethnic peace and urged that nationalism not be 
used for political purposes. She has pledged to purge the 
police forces, reform the judicial system and fight organized 
crime.
    She told the OSCE recently that, quote, ``In addition to 
the reconstruction of destroyed facilities, we also face a far 
more difficult task: to restore the lost trust between [both] 
communities in the south. It is not easy to achieve trust after 
such a complex conflict. The level of nationalism and 
intolerance is very high. In the government's comments on the 
commission's report: We openly admit,'' she went on to say, 
``the existence of serious problems in the field of human 
rights in the post-conflict period; we agree with many 
criticisms of the commission in this field; we are ready to 
change the situation and we need support in implementing the 
commission's recommendations.''
    I would ask unanimous consent that my full statement be 
made a part of the record, because we are pressed for some time 
this afternoon. And I would also, without objection, include 
opening statements from other Commissioners, many of whom are 
on their way here.
    First, we will hear today from Kimmo, who is a former 
member of the Finnish Parliament and currently chairman of the 
Independent International Commission of Inquiry into the Events 
in Southern Kyrgyzstan in June of 2010. He has been a colleague 
of long standing at OSCE Parliamentary Assembly, a good friend 
and a man who has spoken out on human rights everywhere in the 
OSCE space for many years. And we will now turn to him for his 
comments.
    Kimmo.

  DR. KIMMO KILJUNEN, CHAIRPERSON, INDEPENDENT INTERNATIONAL 
COMMISSION OF INQUIRY INTO THE EVENTS IN SOUTHERN KYRGYZSTAN IN 
                           JUNE 2010

    Dr. Kiljunen. OK. Thank you very much. And I have to start 
my short presentation with thanking--two things: First, that it 
wasn't necessary for me to travel to Washington in this time, 
due to the fact that we do have the coming week and starting 
from tomorrow already the biggest summer festivity in Finland 
and I would sacrifice my family--[chuckles]--to come there. So 
thanks that we could organize this in this particular way, 
although obviously I'm not seeing you physically, but we can 
hear it from each other. And obviously I know you very well 
already; before, we have been several times.
    Second, thanks goes to the American Government and you 
personally also, in the way that you have given strong support 
for the International Inquiry Commission, which I have headed, 
first, obviously, financially--United States of America was the 
second-biggest financial supporter after the European Union for 
the commission's work, as well as political support during the 
process itself of inquiry--several experts and the competence 
came from your country--but also very important of course 
after, when we have published our report. I have been very 
pleased that the U.S. Government has supported it and even 
after that episode, which was a bit strange, that the 
Kyrgyzstan Parliament condemned the report and put me 
personally as a persona non grata and also asked the 
prosecutor's office, as well as law enforcement authorities, to 
put accountable those people who have helped us in terms of the 
report preparation inside Kyrgyzstan. These were obviously 
severe steps, and I'm very pleased that the international 
community, including the United States Government, has 
condemned that process. So these are the thanks.
    Then about the commission itself, the work and some of our 
conclusions, if you allow me first to say a few words about 
characteristics of the inquiry-- because it was a bit sui 
generis type of operation we made--there were several requests 
by the international community to have an investigation on the 
events in southern Kyrgyzstan last year. OSCE, European Union, 
several governments, obviously the United Nations requested 
this type of inquiry. But at the end it was done via this type 
of independent inquiry commission, which obviously used the 
terms of references of the United Nations High Commissioner for 
Human Rights. It's not typically the references for this type 
of inquiry, when similar types of human rights violations have 
taken place throughout the world.
    So we used actually very much the U.N. type of formula in 
terms of our mandate, and the members of the commission were 
very high caliber. Myself, I was heading it, but we had seven 
members altogether in the commission, including Ralph Zacklin, 
the former assistant secretary general for the United National 
for legal affairs; Philip Alston, who is a professor in Harvard 
University from Australia, very famous international lawyer; 
Rein Mullerson from Estonia, former acting foreign minister of 
Estonia and also vice chancellor of the Tallinn University; 
Valery Tishkov from Russia, who is a former minister for 
national minorities in Russia and academician; as well as 
Brigitte Horbette from France, who has been a member of the 
Court of Appeal; and Yakin Erturk from Turkey, who has been the 
former U.N. representative on gender-related violence. So we 
had a very high-quality commission who worked throughout the 
period when we started operation at the end of September.
    We had around 50 researchers, specialists on the field. We 
had public officials in Osh and Jalal-Abad, and we were two and 
half months, close to three months, working in Kyrgyzstan. And 
thanks very much for the Kyrgyzstan Government that they 
obviously agreed with the terms, but they also fulfilled the 
terms. So we had access to information, access to every place 
where we wanted to go. We could meet every people we wanted 
inside the country. Obviously, we also made interviews outside 
the country among the refugees, particularly in Russia and some 
other countries too. So we made a very extensive inquiry, 
interviewing over 700 people, and we have lots of audiovisual, 
other documentary materials in our hands.
    We finalized the report so it was released in May, early 
May this year. CMI, the Crisis Management Initiative, President 
Ahtisaari's office in Helsinki provided the secretarial/
technical support for the commission. So I would say so that it 
was in that way properly done.
    Now some of the conclusions of our report--you already 
mentioned some of the basics but obviously, our task was to 
study first, why this tragedy happened; secondly, what 
happened. Obviously our task was to look at the 
responsibilities and finally, obviously, make recommendations. 
And that is roughly the content of the report, and obviously 
you have had it and I'm pleased that you have even read it and 
commented [on] it.
    In terms of why it happened, of course, the first question 
in Kyrgyzstan: Who started it and when it exactly started. 
Obviously the tragedy itself in Osh, the biggest violence 
period was 10th to 13th or 14th of July last year. But we can 
say that the whole process started on the 7th of April, when 
there was an overthrow of the Bakiyev regime in Bishkek and a 
new interim government took place and created and generated, 
obviously, a power vacuum, particularly in the south in 
Kyrgyzstan, which is a stronghold for Bakiyev, the previous 
regime.
    So obviously a power vacuum, particularly, is explaining 
the political reasons for the tragedy. One must remember that 
20 years ago, in 1990, there were similar type of violent 
tragedy--roughly even the same time of the year, June, in 
1990--in Osh, particularly Osh region and southern Kyrgyzstan. 
There too it was the same situation, power vacuum, because the 
Soviet Union was to collapse, and was collapsing, and that 
generated a problem. That was actually 1991. So it was exactly 
10 years ago. And that--20 years ago. And that obviously is--
was a major problem and reason for this--for the tragedy 
itself.
    There were three major political players which we obviously 
looked very carefully in terms of political reasons. Obviously 
there are former supporters of the Bakiyev regime, who had a 
stronghold in the south in Kyrgyzstan. They generated during 
May already several types of violent events, in Jalal-Abad 
particularly, which created concern. Obviously the interim 
government itself has a responsibility in the area they're 
principally controlling.
    And obviously one must remember that in southern Kyrgyzstan 
40 percent of the population are from Uzbek origin, although in 
terms of total population it's 14 percent. But in southern 
Kyrgyzstan the Uzbek population is large and obviously Uzbek 
political leaders start also to be activated. And that created 
tensions step by step where, I would say, sowed political 
fanaticism, used ethnicity as a tool and that obviously 
generated the process.
    There have been, obviously, and when we are looking, 
criminal elements and other issues which are related, but 
that's roughly the political context.
    What happened? We have a very detailed narrative in our 
report. I would say so it's the best account on--almost hour by 
hour, day by day, suburb by suburb, both in Osh and Jalal-Abad, 
where we are really describing the terrifying events, what 
happened.
    Then comes, obviously, questions of the responsibility. 
Major issue for us was to qualify the crimes committed in terms 
of humanitarian law. Obviously the figures--you already 
mentioned that roughly 470, not more than 500, were killed. The 
exact number is still lacking, but roughly on that range it is. 
You mentioned, obviously, displaced people, 3(00,000), 400,000, 
depending how we are calculating that one, or close to 100,000, 
took refuge in Uzbekistan. Short time, they returned back.
    And obviously it generated big, big problems. Lots of 
property demolished. Seventy-four percent of the killed people 
were Uzbeks; 24 percent were Kyrgyz. So that was roughly the 
relations in terms of killings and obviously in the terms of 
violence. In terms of properties, dwellings, particularly, it 
was primarily Uzbek areas which were destroyed in terms of 
dwellings. In terms of public properties, obviously it was 
different parts of the cities, also Kyrgyz properties too.
    Then, in terms of the responsibilities, first issue for us 
was to qualify the intent in terms of international law. We 
clearly came to the conclusion it's not war crime.
    The second point, which was addressed, was genocide. We 
couldn't--the evidence is not enough to say it was a genocide. 
But in terms of the reasonable suspicion principle we used in 
the terms of our investigation, it was crime against humanity.
    It was widespread, it was systematic and against civilian 
population particularly--and we addressed that one--
particularly attacks in 11th, 12th and 13th against Uzbek 
mahalas, Uzbek suburbs. There we can say in Osh that this was a 
crime against humanity, and obviously we need court to take an 
investigation--prosecution investigation in order to really 
beyond doubt come to that same conclusion.
    Then we obviously looked at the responsibilities in Osh 
individually. The task--mandate for the commission was very 
clear: We shouldn't do a criminal investigation, and we 
couldn't do, obviously. We didn't have the methodologies, 
competence, and it was not our task either to have a criminal 
investigation. It's up to the courts in Kyrgyzstan to do, and 
obviously we asked them seriously to do that.
    But we obviously looked how much we have evidence in terms 
of individual responsibilities, and our evidence wasn't enough 
to say this or that person particularly should be taken to the 
court. We don't have--we don't have enough evidence. We know 
that crimes were committed--particularly lots of crimes in 
terms of human rights violations were committed and others too, 
and obviously the court must take those up. And that's 
important.
    Unfortunately, as also you mention in your preliminary--
your first statement, there have been court cases, close to a 
thousand already, this day, but unfortunately, major part--
major part of those court cases are against Uzbeks.
    I already mentioned that 74 percent of the victims were 
Uzbeks in terms of killed people. Eighty percent of the court 
cases are against Uzbeks, and all who have been condemned to 
date are Uzbeks. So it's obviously disproportionally--
[chuckles]--nonbalanced procedure. And unfortunately, all the 
cases have been--the major evidence have been confession.
    And you yourself mentioned and we have evidence that 
torture has been used. And obviously that's absolutely, 
absolutely major violation against--major human rights 
violations. And that should be addressed seriously by the 
prosecutor's office in Kyrgyzstan, as well as to check the 
judicial system that it's really working properly in terms of 
all Kyrgyzstan law and obviously also in terms of international 
law. These are one of the major parts of our recommendations.
    Then we looked obviously at the institutional 
responsibilities, and of course every governments have a 
responsibility to protect their people. And irrespective of 
that fact, which we know, that there was a power vacuum in the 
south in Kyrgyzstan, nevertheless the interim government have a 
principal and had a principal responsibility to protect the 
people, and obviously they failed.
    The major issue is about the law enforcement bodies and 
security forces, and there, unfortunately, we can clearly see 
that there is a major question mark. Our conclusion is very 
clearly so--that there were actually security forces present in 
the area, but they were not used properly to protect the 
people. They protected rather the administrative buildings, 
rather than people, and that obviously is a major failure.
    Furthermore, furthermore, clearly there's an evidence that 
seizure of weapons by troops, military forces, police forces, 
is a big question mark, and creates a complicity potential. And 
we are very much asking, the commission is asking--one of the 
recommendations is that there must be a very proper prosecution 
investigation on the responsibilities of the security forces, 
law enforcement bodies, particularly addressing the question of 
seizure of the weapons. And that's a major, major, major 
problem there.
    Then obviously we recognized also the, let's say, less 
transparent elements in the society, including the criminal 
issues and narcotrafficking, these type of problematics, which 
are playing a major role in southern Kyrgyzstan. They neither--
we don't have enough evidence to say this or that gang or this 
or that group has been responsible, but obviously we can also 
see the role, in terms of the violence.
    In terms of the recommendations, there are concrete, 
major--more than 50 recommendations, starting [with] very 
concrete issues, where we are really asking particularly that a 
strong public stand must be taken by the Kyrgyzstan Government 
and authorities to condemn ethnic nationalism--ethnonationalism 
in the country. That's not the way you conduct politics in any 
country today, and ethnic polarizations should be avoided.
    We are proposing different measures how to improve the 
relations between ethnic groups in southern Kyrgyzstan, how to 
improve the position of Uzbeks, also in public administration, 
law enforcement bodies, in police forces as well as in judicial 
systems; that it would be more balanced than today. We also 
addressed the question of the Uzbek language. We are not asking 
Uzbek to become an official language in the language in the 
country, but certain type of position for Uzbek language in 
southern Kyrgyzstan should be recognized more proper way than 
today.
    There are lots of those recommendations related to the 
prosecution processes and court cases which should be seriously 
taken. And we also are recommending a truth and reconciliation 
commission should be established more fully, with international 
support.
    Obviously, the reconstruction operation should be started--
it has already been started, obviously, we know, but it should 
be moving further, and obviously also international support is 
needed there.
    Then finally, we are also asking the international 
community to take seriously both our recommendations, which 
they have taken--and we are pleased on that one--but also 
asking the High Commissioner for Human Rights of United 
Nations, as well as the High Commissioner for Minorities of the 
OSCE to establish monitoring and follow-up systems, and that 
way support the Government of Kyrgyzstan in putting forth our 
recommendations.
    Finally, in our report, there's also an annex made by the 
Kyrgyzstan Government. We are--this is typical nowadays in 
these types of reporting that there is an annex of opinions of 
the governments on the report. They are quite critical. 
Obviously we understand. There are certain areas we can 
dispute, but principally most important is that the government 
agrees with our conclusions in the way that the 
recommendations--they are saying that the major part of them 
they are taking seriously, and the Government of Kyrgyzstan is 
aiming to establish a special commission to implement and 
monitor our recommendations. And I've already now understood 
that the international community, European Union, United 
Nations, OSCE, United States--your own country--several 
governments have supported that initiative and are willing to 
help Kyrgyzstan Government to implement our recommendations and 
also creating a monitoring system.
    Finally, I want to come back to what--where from I 
started--concerns the decision by Kyrgyzstan Parliament. I see 
that they took a very critical--why they took a very critical 
position was somewhat related--that they wanted to take 
distance from the commission's report, which is very, very, 
very unfortunate, particularly if that distance-taking means 
that they are not supporting the Government's effort to 
implement the recommendations, because our aim clearly, clearly 
was reconciliation. And that's very--pity if that's not 
recognized.
    The persona non grata position on myself is a big pity, but 
more important is that I cannot agree at all--and this is a 
major, major problem--if prosecutor's office or law enforcement 
bodies start to somewhat harass and--as they put accountable 
those people in Kyrgyzstan who had technically helped our 
commission's work. I am, and the commission members--we are 
outside from Kyrgyzstan, but there are really people living in 
the country who have been helpful for our work, and it's out of 
questions that they should be any way harassed.
    And I'm very pleased that the president has indicated 
that's not the case, it cannot go this way, and also has 
actually indicated that the Government itself takes seriously 
our recommendations and are aiming to implement them.
    Thank you very much.
    Mr. Smith. Dr. Kiljunen, thank you very much for your 
report. Thank you for your willingness to come and provide 
testimony to our commission. You had mentioned that you're 
hoping people will take notice. Well, as you can see by this 
Commission hearing, we have taken notice, and we're hoping to 
help you to get to the bottom of what happened and especially 
an accountability for those who committed, as you put it, these 
crimes against humanity.
    I would like to ask you, just in terms of definitions--you 
know, the Convention on the Prevention and Punishment of the 
Crime of Genocide, the U.N. convention, makes it very clear in 
Article II that genocide means any of the following acts 
committed with the intent to destroy, in whole or in part, a 
national, ethnic, racial or religious group--such as killing 
members of the group, causing serious bodily or mental harm to 
the group--and then it goes on with other criteria.
    In coming to your conclusion that it's a crime against 
humanity as opposed to genocide--you know, it doesn't have to 
be the whole group; it can be in whole or in part. Do you think 
it does rise to the status of being a crime of genocide? And as 
you recall, we had serious problems during the Balkan wars of 
those who would not call, for example, what happened in 
Srebrenica a crime of genocide. And I'm just wondering, you 
know, in terms of definitions, as my first question, what your 
thoughts are on that.
    Dr. Kiljunen. Thanks very much for the question. Now I must 
immediately admit I'm not a lawyer in international 
humanitarian law. I'm not a specialist on that area. So in 
terms of our report's conclusions, on that particular issue, I 
relied with the high expertise which we had actually in our 
commission itself. We had actually four major--[chuckles]--
lawyers in terms of international law who really looked very, 
very carefully conceptually at that issue--genocide, war crime 
and crime against humanity.
    Our evidence is obviously based on reasonable suspicion, 
that--this is not a court; it's not a tribunal where we are. So 
it's not a court case itself, but we obviously have evidence.
    The evidence what we have, I already indicated, in terms of 
international law--and there I'm saying what they are, I am 
repeating what they are saying; as am I saying, I'm not 
specialist--they say that this is not a genocide. It's not in 
terms of scale itself; in terms of its process itself, it's not 
qualifying on those terms.
    When they're looking at the concept of crime against 
humanity, they're also very, very careful on that one. They 
look at very carefully the Rome Statute and all those issues, 
and they clearly, as I've indicated--[inaudible]--the three 
basic issues and very specific events during that process, 
during that strategy, particular, as I said to you, those 
attacks against Uzbek mahalas in Osh in 11th and--between 11th 
and the 13th of June, they were--the way it was done clearly 
was crime against humanity in terms of the evidence what we 
have.
    Why do we say so? It was widespread. It was widespread; it 
was systematic one. It was repeated in the same way in 
different suburbs, in different mahalas, Uzbek mahalas of the 
Osh, and same way of organizing the attacks there and also 
robbing, burning and killing. And even there was also sexual 
violence--also related, but that necessarily--it's one of 
elements, but was very systematic one and also obviously 
against civilian population. So those indications are obvious--
[inaudible]--where you can come to the conclusions, crime 
against humanity.
    Mr. Smith. Let me ask you if I----
    Dr. Kiljunen. But in terms of genocide, clearly those 
experts, the international lawyers say that it wasn't on that 
scale.
    Mr. Smith. You mentioned that you're hoping that High 
Commissioner for Human Rights Pillay will do something in 
response to your report. One, have they done anything? Has the 
Human Rights Council done anything in response to your report?
    And with regards to the ICC, as we all know, one of the 
criteria is that whether or not there's a competence and a 
willingness on the part of the government where these alleged 
crimes have occurred to prosecute, investigate, and prosecute 
adequately, and then incarcerate those who have committed these 
crimes. We know that places like Kenya, countries like Kenya, 
are arguing that they have the capacity and the willingness and 
the capability to do so and yet the ICC is still asking for 
certain people who have committed very, very serious crimes 
there. Do you believe that the Kyrgyz judicial system has the 
ability to prosecute and to bring to justice those that have 
committed the crimes?
    Dr. Kiljunen. First, concerning the U.N. dimensions, High 
Commissioner for Human Rights. They have contributed very 
strongly from the start to our investigation. The [terms is 
?]--we're really even--we got them from their sources. They 
helped us to formulate the mandate for the commission. And in 
terms of expertise in the commission work, we're relying very 
much on the knowledge.
    Very pleased we were obviously when our report was 
released. Madame Pillay herself immediately--she was maybe one 
of the first ones to reacte positively to our report and, in 
Human Rights Council meeting in Geneva a few weeks ago, as you 
know, you mentioned, it was clearly mentioned our report as one 
of those key documents, and high commissioner of human rights 
indicated that the follow-up work in terms of the high 
commissioner's work inside Kyrgyzstan will look at our 
recommendations, and that way they are very supportive.
    As regards to ICC, International Criminal Court, there we 
have a bit different situation now concerning Kyrgyzstan 
because Kyrgyzstan is not part and parcel of the ICC. They are 
not--that's not a signatory country for Rome Statute. And one--
that's one of the recommendations what we are really saying, 
that Kyrgyzstan should sign the Rome Statute and, in that way, 
that would be the preventive issue in terms of the future, 
similar to other issues, and that we hope.
    Your last question was related to the issue that--are we 
trusting on the juridical system in Kyrgyzstan to put people 
on--accountable? And here I can say, as I already indicated, 
that principally we must trust in every country under juridical 
systems. Practically, obviously we have recognized several 
hiccups and problems which we already indicated in our report, 
even that somewhat we are feeling that--and not only feeling, 
but we are seeing-- that the juridical processes have been 
unbalanced and that way that should be addressed seriously.
    I'm very pleased and I noted very clearly here to you also 
that President Roza Otunbaeva has several times addressed that 
issue. Also government has said that there should be reform 
even in terms of juridical system in Kyrgyzstan, that it would 
be properly in future addressing these questions. And here 
actually--it's one of the talks and one of the recommendations 
also we have in our report--it's a powerful international 
community to help in reforming the juridical system in 
Kyrgyzstan.
    Mr. Smith. Dr. Kiljunen, we're joined by a Co-Chairman of 
the Commission, Ben Cardin, who's on a very tight schedule in 
the Senate, and he has some questions or some comments.

 HON. BENJAMIN L. CARDIN, CO-CHAIRMAN, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, Kimmo, first of all, thank you for what 
you've done. It's good to see you even though it's long 
distance. It's nice to see----
    Dr. Kiljunen. [Chuckles.] Nice to see you also.
    Mr. Cardin. Looks like you're aging well. That's good. I'm 
sure--
    Dr. Kiljunen. [Chuckles.] See you in Belgrade hopefully.
    Mr. Cardin. Good. I will be in Belgrade, so I'll look 
forward to seeing you in Belgrade.
    Dr. Kiljunen. Good.
    Mr. Cardin. Kyrgyzstan is a country in which the OSCE was 
relevant, that they really got involved, and certain issues 
were certainly calmed down dramatically. And I think we can 
take great pride that the process with OSCE had a major impact 
in reducing the amount of violence and death.
    Having said that, as your report points out, there are 
significant challenges that we need to understand and confront. 
Now I didn't hear your original point, but looking at the focus 
of this hearing on the minorities, the Uzbeks, the question is 
whether the Uzbeks have confidence in the centralized 
government and whether they will--whether they'll return and 
stay in Kyrgyzstan, whether they'll be able to economically 
prosper in Kyrgyzstan, whether they'll get a fair share of the 
governmental resources, since they are now going to have a very 
minority status within the government. And these are issues 
that are not easily resolved. But I thought that your report at 
least helped us to understand that better, and I hope we can 
continue to put a spotlight on this to make the type of 
progress for representation of all people in Kyrgyzstan, and I 
welcome what you've done, and I can tell you we will treat your 
information with the greatest amount of attention.
    Dr. Kiljunen. Thanks, and good questions. You are 
addressing very well the long-term problems, myriad problems in 
Kyrgyzstan, but as related to Uzbeks. One should remember that 
the Uzbek community in southern Kyrgyzstan where it's a major 
community--as I said, there are roughly 40 percent of the 
population in Osh are Uzbek--they do actually control quite 
well the economy. They are--by average they are richer than the 
Kyrgyz population, which is primarily is from countryside 
dominating in the south. Uzbeks are dominating in the cities. 
They are more well-to-do, as I said; the Uzbek community.
    But, very important, they are somewhat excluded from the 
public administration, also from the politics of the country. 
Similarly the Uzbeks are not represented practically at all in 
law enforcement bodies. Similarly they are not represented in 
juridical systems. So that there are imbalances which are 
serious ones in terms of creating long-term harmony in the 
society.
    And obviously Kyrgyz population's economics, living 
conditions, should be improved, but similar way, the Uzbek 
population's participation in the public affairs of Kyrgyzstan 
should be improved in order to really reconciliate in the 
longer term, as I said.
    These are typical minority problems, as you put it very 
clearly, and OSCE obviously--the body where we are--have been--
is addressing those issues. As regards the role of OSCE in 
southern Kyrgyzstan and in terms of our inquiry commission too, 
it was a bit more complicated.
    As you know, I am obviously--I was the special 
representative of OSCE Parliamentary Assembly in the Central 
Asia. But OSCE itself didn't actually do the--this was 
independent commission from OSCE, even independent commission 
from OSCE Parliamentary Assembly. OSCE was very active after 
the events, the tragic events, in southern Kyrgyzstan in terms 
of trying to help to organize--reorganize or reform the police 
forces south in Kyrgyzstan. That created quite strong 
resistance in Kyrgyzstan and, at the end, compromise was found, 
so this type of technical advisory police group was sent to the 
southern Kyrgyzstan to help these type of reforms. So OSCE is 
present there obviously trying to help also the reconciliation 
process, but it's a long term and long process.
    Mr. Cardin. Look forward to seeing you in Belgrade.
    Dr. Kiljunen. Yes. Thanks.
    Mr. Smith. Dr. Kiljunen, I'd like to ask just a couple of 
very brief questions; if you would, as best you can, provide 
answers. And again, I thank you for the gracious grant of your 
time to be here via this satellite hookup. First----
    Dr. Kiljunen. It's great pleasure for me not to travel 
there. [Chuckles.]
    Mr. Smith. Okay.
    Dr. Kiljunen. So I can see you here in Helsinki.
    Mr. Smith. Thank you. Could you just tell us about the role 
of the media during the violence? And we understand--I know 
your report recommends that the Uzbek-language media be 
reopened as soon as possible, and yet we note that the 
Parliament has voted to ban Fergana.ru and limit international 
media during the upcoming presidential election. Secondly, if 
you could speak to retaliation: Has there been any retaliation 
against any of those people with whom you had contact and your 
group? It's very important if you could get that on the record 
so we know if there has been such retaliation.
    And what is--how would you characterize the reaction of 
President Karimov to the crisis that erupted last year? And 
finally, your ability to travel there obviously has been 
revoked. Are you seeking--if you were able to travel, would you 
again, you know, hop on a plane and go there, either by 
yourself or with the other members of your commission? Is there 
unfinished business that you need to accomplish by an in-
country visit?
    Dr. Kiljunen. Thanks very much. Very good questions and--
[chuckles]--even with the very detailed questions.
    First off, the role of media. You know in America, I know 
in Finland, we know the present world today--media is a very 
strong player. It creates the image of the reality in every 
society; it influence very much in terms of formulating 
opinions, and that way the responsibility of the media is 
important. And in our report, we don't have very deep analysis 
of the media; but what we have is very clearly indicating that 
media was one of those instruments [that were ?] polarizing and 
creating stigmas and creating animosities among the ethnic 
groups. They--it should have been more, let's say, 
reconciliatory. And that's very unfortunate. We are actually 
asking in one of the recommendations is that they should create 
a code of conduct, media, in terms of ethnic balance of the 
society.
    In terms of aftermath--and now I'm telling you my own 
experience--and you as a politician, myself too--the press 
conference I had in Kyrgyzstan, in Bishkek, on 3rd of May, was 
an extraordinary press conference. I have never had so hostile 
media environment anywhere as there. Some--sometimes they were 
accusing, attacking very strongly the media representatives 
against me, and they were applauding to those questions that 
they made as if they would testify against me and not myself 
for giving the report. So the media unfortunately plays in 
Kyrgyzstan major role and unfortunately even today not 
necessary helping the reconciliation. That's a severe problem 
and a severe issue.
    Then you ask about the retaliation in terms of the 
Parliament decision concerning the people who had helped us, 
and here I am open. Unfortunately there are evidence: At least 
one person who have helped us, Uzbek origin, has actually left 
Osh because of harassment related to his technical help to our 
commission. He has took refuge first in Bishkek, and he's now 
going to Kazakhstan.
    So that is obviously major, major issue if there would be 
more widespread--and even this one single case is terrifying--
that those people who have helped us are somewhat in jeopardy 
inside the country. That's a major, major problem in terms of 
the commission's integrity and in terms of future similar type 
of investigation if done in any part of the world, if the 
result is persona non grata for the heads of the commission, no 
travel possibilities for the other commission members, or even 
harassment against people who have worked. It's absolutely 
impossible to accept.
    Then President Karimov's role in Uzbekistan: Of course, 
it's a very good question and complicated question. You 
obviously remember Andijan, 2005. There was a violent episode 
in Andijan, Uzbekistan, which never, never were investigated 
properly by international community. Uzbekistan Government 
didn't allow that to take place, although request was made by 
different governments and different international 
organizations.
    In this case, in terms of the Kyrgyzstan, 2010, now 
Uzbekistan Government has been very supportive for 
international inquiry to take place; in international forums, 
they have requested it; and they have been different ways 
supportive. Even how they handle the refugee situation in south 
and supported the Kyrgyzstan Government to balance the 
situation has been both agreed in terms of Kyrgyzstan itself, 
the Government of Kyrgyzstan, as well as by international 
community. So in that way, President Karimov, the Uzbekistan 
Government have been very constructive.
    Then the last question concerning myself and my commission 
members in terms of the future: Obviously--and I'm very open 
here--I'm very, very sad and sorrowed that I don't have the 
opportunity to travel to Kyrgyzstan. I met some deputies from 
Kyrgyzstan Parliament here in Finland, a few week ago; I hope I 
to--I will meet them in Belgrade; and I--we have open 
discussion, and ask them openly, why you made this decision? I 
suppose I'm one of the friends of your country--and I am friend 
of your country--and I wanted to help in terms of 
reconciliation process. Obviously I wanted to travel there. My 
commission members want to go there and help in different ways, 
even if the question is about the truth and reconciliation 
commission, we might give advice and ideas, et cetera, et 
cetera.
    But now, because of the ban, obvious it's impossible. As I 
said, the president office and the government has deplored the 
situation. But obviously it has a legal effect because if 
Parliament makes a decision, obviously it's a Parliament 
decision. It's political primarily than legal, one that has 
also legal consequences. And that means that I can only 
contribute for Kyrgyzstan, as I hope to contribute, outside of 
Kyrgyzstan today, not inside.
    Mr. Smith. Dr. Kiljunen, we're joined today by Ambassador 
Muktar Djumaliev who will be testifying in the second panel, 
and I'm just wondering if you had a direct message that you'd 
like to convey to him or a question, we'd appreciate it. Or if 
you wanted to think about that for a moment, we are joined by 
Congressman Trent Franks, who is chairman of the Judiciary's 
Committee on the Constitution and an expert on the 
Constitution, but he also wears another hat: He's the chairman 
of the caucus--the House Caucus on Religious Freedom. So if you 
had a question for the ambassador--or I could to right to 
Chairman Franks.
    Dr. Kiljunen. If I can say a few words, first to Muktar 
Djumaliev, I can say he's my friend. We know each other very 
well, and thanks for Muktar Djumaliev. He helped very much 
originally when we were establishing the commission. He gave 
guidances and took a very responsible way, understanding the 
difficult tasks for the commissions, and I'm very grateful for 
that one. So Muktar is in that way my friend, but also 
obviously a responsible--a responsible civil servant.
    I have always one question to him in this case. I hope that 
he passes the message to Kyrgyzstan Government that what they 
committed in terms of the--our report, saying that our 
recommendations are, by major part, valid and important, that I 
would like that he also confirms that one and particularly, 
because the idea was to establish a special national commission 
to look at our recommendations, how he sees the situation just 
now in the country, in terms of establishing that special 
commission to look the implementation of our recommendation and 
monitor--I would like very much to hear his reactions to that 
one.
    Mr. Smith. OK. He will be in the witness stand just a few 
minutes from now. I'd like to yield to Chairman Franks for any 
questions he might have.

HON. TRENT FRANKS (R-8), A MEMBER OF CONGRESS FROM THE STATE OF 
                            ARIZONA

    Mr. Franks. Well, thank you, Chairman Smith. And I just say 
for those listening here, there is no one in the Congress of 
the United States that has greater credibility when--as it 
relates to religious freedom and human rights, than Chairman 
Chris Smith. He is a hero to all of us, and we appreciate the 
opportunity just to sit here with you, Mr. Chairman.
    Dr. Kiljunen, I also am grateful to you for joining us. I 
know that there are plenty of things for a fellow like you to 
do, but we're grateful that you've taken the time. So I just 
have one question. I know you're dealing with a lot of economic 
challenges there in Kyrgyzstan. And I wanted to ask you, 
related to the lack of economic opportunities as well as some 
of the continued harassment, really, of some of the ethnic 
Uzbeks, many of them have essentially left the country, and, 
for those who stay, I'm just wondering if they--if, as an 
abused and disenfranchised minority population, could it create 
a situation where those youth of that community are vulnerable 
to recruitment by extremist organizations, Muslim extremism, 
jihadist groups? Is that a potential, or is it something that 
you've observed in any way?
    Dr. Kiljunen. Thanks for the question. It's a very 
important one because one of the major claims before the 
inquiry started was that it's actually the whole tragedy was 
result of religious extremism and international terrorism. Our 
evidence anyhow is not actually going to that direction. We 
couldn't say that it's clearly somewhat organized from abroad 
or, let's say, religious extremist groups could--had utilized 
opportunity and created this cause and tragedy itself. They 
might have played a role; we cannot never say so. But it wasn't 
systematic, and we couldn't get evidence on that one.
    How in terms of future--that was your question--obviously, 
obviously, always when there is a situation that disharmony is 
in the society, polarized situation is in the society, obvious 
that's a breeding ground for any type of extremist elements. So 
potentially, yes, if the reconciliation process is not properly 
taking place in Kyrgyzstan, southern Kyrgyzstan, particularly--
obviously there is a room for different types of extremism, and 
I hope that that's not created the situation ripe for this 
processes.
    We know very well that in Fergana Valley and in that region 
of Kyrgyzstan--it's next door almost--there's lots of room for 
different types of extremist and terrorist movements, and then 
that's why this is even more important to address seriously, 
and that's why we are hoping, and I'm so pleased that the 
Government of Kyrgyzstan is also willing in terms of their 
reactions to our report to have for the reconciliation.
    Mr. Franks. Thank you, Dr. Kiljunen. Perhaps I'll just ask 
one more question; that'd be all right? I would just ask you 
finally, sir, what efforts or steps do you know that may be 
being taken to--by the Kyrgyzstan Government to apply the rule 
of law to the entire society, whether it be religious freedom 
or just the general rule of law within the judicial system and 
other security instruments of the State? What are those steps, 
and can the OSCE ever be of further assistance in that--to that 
end or to that goal?
    Dr. Kiljunen. This is a very relevant question. 
Particularly you should ask Muktar Djumaliev also to respond to 
that one because obviously he's representing the government 
there.
    I know, as I said, that already the president herself has 
several times addressed that question: hiccups and handicaps in 
the juridical system. And I knows also that prosecutors-
general's office when we discussed that, they also recognized 
the problems. But unfortunately it's a long process to reform 
the juridical system, and you're absolutely correct saying that 
maybe if it's requested by Kyrgyzstan authorities, maybe the 
international community could seriously help in this area. I 
know that European Union, for example, has in--helped in 
Kazakhstan on giving this juridical system help, and we are 
also recommending in our report that the--that the inter 
community in that area help Kyrgyzstan Government. So I think 
it's a major issue you're asking.
    Mr. Franks. Well, thank you again, sir, for joining us, and 
thank you, Chairman Smith.
    Mr. Smith. Thank you. Thank you very much, Chairman Trent 
Franks.
    Dr. Kiljunen, thank you so much for, again, appearing 
before our commission via satellite. Your report was 
extraordinary. I first read about it when I was traveling, and 
it came across as an AP dispatch and especially the way that 
you were being, in my opinion, very much mistreated. So I want 
to thank you for staying at this because you, like our 
commission, in your work for years, has been very much focused 
on human rights. So thank you so much.
    Dr. Kiljunen. Thanks, Chris, and we'll see also you maybe 
in Belgrade. Thanks very much, indeed.
    Mr. Smith. Thank you. See you there.
    I'd like to now welcome our next panel made up of the 
ambassador, Ambassador Muktar Djumaliev, who arrived in 
Washington last December to represent the Kyrgyz Republic. He 
previously served as Kyrgyz ambassador to Switzerland, the 
World Trade Organization and the U.N. office in Geneva as well 
as deputy chief of staff to the President and first deputy of 
minister of foreign trade and industry. A full bio of you as 
well as our other very distinguished witnesses who will follow 
on panel three will be made a part of the record.
    So, Mr. Ambassador, please proceed as you would like.

   HIS EXCELLENCY MUKTAR DJUMALIEV, AMBASSADOR OF THE KYRGYZ 
                 REPUBLIC TO THE UNITED STATES

    Amb. Djumaliev. Thank you, Mr. Chairman, for convening us 
this meeting today. And this is a very important issue for 
Kyrgyzstan, and this is a very sensitive issue, and I think 
this is important for the future stability in Kyrgyzstan and 
for the--all the reconciliation process. What we are discussing 
today here--it's really very painful, and this is a very sad 
story in Kyrgyzstan's history.
    I was hearing all the comments done by Kimmo Kiljunen. And, 
of course, it seems to me that the report itself--and we have 
already commented and expressed by the government on the 
comment by, first of all, accepting all the comments done by 
the commission. And Mr. Chairman, it was the first time 
experiencing when Kyrgyzstan made access for the international 
investigations into its territory, and such a precedent never 
happened in the post-Soviet countries.
    The Government of Kyrgyzstan appreciates the importance and 
value of work done by the International Inquiry Commission and 
also expresses its thanks to the reputable members for their 
efforts of contribution towards it to investigate the tragic 
events that occurred in Kyrgyzstan.
    The Government also agrees with number of conclusions and 
criticism contained in the report, and it does not absolve the 
responsibility for what happened. The provisional government 
honestly and openly acknowledged its guilt and responsibility 
on this address on June 16th, 2010, to the people of Kyrgyzstan 
and the international community.
    Kyrgyzstan's Government is taking and will continue to take 
all necessary measures to eliminate or minimize the 
consequences of the tragic conflicts and to prevent the 
repetition of similar events in the future. Many of the 
recommendations contained in the report have been implemented 
by the Government from the day of the conflict and from the--
which was localized. Kyrgyzstan's Government will establish the 
special commission to implement and monitor implementation of 
the recommendations of the report and other reports and to 
research related to the tragic events of 2010 in southern 
Kyrgyzstan.
    However, the Kyrgyz Government believes that the report 
does not contain sufficient evidence to conclude that there 
have been made certain acts that can qualify it as a crime 
against humanity during the June events in the city of Osh. 
Kyrgyz Government considers unacceptable the visible tendency 
in the ICC report to take into account to a greater extent the 
crimes committed only by the members of one acting group while 
ignoring the deaths or the casualties suffered by the same 
group and depicting another group as the single suffered and 
defenseless party.
    It is also important to take into account the fact that 
during the conflict, there were no sufficient political, 
financial, and law enforcement resources at the disposal of the 
provisional government to counter the large-scale provocations 
of the interethnic clashes. However, even under such 
conditions, the people and the authorities of Kyrgyzstan 
independently and without outside intervention managed to stop 
violence and localize the conflict within a few days.
    Kyrgyzstan's Government took a great effort to reconcile 
the parties of the conflict to overcome the consequences of the 
conflict and still proceed with this. However, there are still 
tangible tensions and a number of unsolved social economic 
problems in the conflict zone. In conditions of the start of 
the presidential campaign, some of the conclusions of the 
report can be used by the opponents of the democratic reforms 
to destabilize the situation and strengthen the position of the 
internal forces.
    Kyrgyzstan's Government hopes that necessary conclusions 
from the events of 2010 will be made by the international 
community as well, including those organizations that push--
that aim to preventing and neutralizing the--eliminating 
consequences of such conflicts. We have also started work on 
developing and implementing the concept of ethnic development 
and consolidation of the people of Kyrgyzstan.
    We are doing everything possible to punish all those 
responsible. All trials are held in conditions of unprecedented 
openness, but the situation remains difficult, in particular 
with concerns about the emotional nature of the trials, of the 
resonant crimes. The new government declared its uncompromising 
war against criminals and determined to stop the emerging 
criminal gangs with their authorities. The government has taken 
urgent measures to normalize the functioning of law enforcement 
and security agencies. The Defense Council was established as a 
coordinating and supervisory body. In order to effectively 
combat drug trafficking, a drug control agency abolished by the 
previous government has been restored.
    We intend to do everything possible to create conditions to 
strengthen the rule of law, a culture of political dialogue, 
and open the equitable society. Within a short period of time, 
we have achieved some qualitative improvements. Independent 
media is functioning. The opposition has not only ample 
opportunity to criticize the head of the State, but the ruling 
parliamentary coalition--but also actually participates in 
governing the country by leading three parliamentary committees 
on budget and finance, law enforcement and the rule of law, 
human rights and public organizations.
    There are supervisory boards established in the ministries 
to ensure transparency and accountability of the government to 
the people. We are reforming the judicial system to make it 
truly independent and introduce mechanisms to ensure quality 
selections of judges through the council, whose composition is 
formed with the participation of opposition representatives.
    Mr. Chairman, that many people want to ask me today on the 
Parliament's decision with regard to the Kimmo Kiljunen's 
report. And as you know, after the report was released, the 
situation in the country became more tense. The people of 
Kyrgyzstan were expecting that the report will be objective, 
balanced, and will contribute for the reconciliation, and we 
still believe in it. In such a situation, while Parliament 
agreed with the comments of the government, but it passed an 
order to the responsible agency to take a decision on the 
entering of Mr. Kimmo Kiljunen to the Kyrgyz Republic.
    In this regard, the--only specialized agencies should 
decide on this issue. At the same time, the President of Kyrgyz 
Republic called Parliament of the Kyrgyz Republic to reconsider 
its decision at the meeting of the People's Assembly yesterday. 
The President called the Parliament to pay more attention on 
adoption of the recommendations. Since the government commenced 
to the report--complemented document, the report of the 
commission, we believe that the report----
    Mr. Smith. A message, Djumaliev--you're at a very critical 
point in your testimony, and I am loath to interrupt you--just 
hold on for one second. I have two minutes to report to the 
floor for a vote. There are three votes. I will be back within 
10 to 15 minutes at the most. So the Commission will stand in 
brief recess, and if you could then get right back to where you 
are, because it is a very critical part of your testimony. So 
we stand in recess for 15 minutes.

    [Recess.]

    The Commission will resume this hearing, and again, Mr. 
Ambassador, I apologize for that delay. We had three votes. 
Nothing I could do about it, but I would now yield to you. 
Please continue with your statement.
    Amb. Djumaliev. Thank you, Mr. Chairman. I think I was just 
completing my statement by saying the--by informing you about 
the decision of the Parliament on using ban for the Kimmo 
Kiljunen's entry to the Parliament. So that was my final 
remarks, which I just informed you that the President called 
also for the Parliament to reconsider its decision. And it was 
done yesterday. But at the same time, we also know that the 
Parliament has accepted the recommendations--the comments of 
the government, which actually accepts the recommendations of 
the commission.
    So therefore, what Kimmo Kiljunen says today, that's asking 
me to respond as to whether Kyrgyz Government will establish 
the commission for the implementation of the commission's 
report--of course there is a will. There will be established 
the special commission to bring together not only the report of 
the international inquiry commission, but there is also a 
number of reports which is filed for--six reports have been 
produced after the violence. And then the commission should 
work out of these reports and to establish the action plan for 
the implementation of all this commission's recommendations.
    I thank you, Mr. Chairman.
    Mr. Smith. Mr. Ambassador, thank you very much, and thank 
you for that encouraging news. I'm sure Kimmo will be very--or 
was very happy to hear that as well.
    Just let me ask you a few questions. Can you tell us the 
main components of your government's new national plan to 
promote interethnic harmony, and how will that be implemented? 
And if you could also speak to the credible allegations of 
torture, rape, mistreatment in detention, especially rape and 
torture--are those allegations being investigated, and by whom, 
and are people being held to account? Are there any instances 
where someone who has abused, in recent weeks, months, days--of 
being himself arrested and held for those crimes?
    Amb. Djumaliev. I think the--actually, the main priority 
for the government is of course the plans for the 
reconciliation process. This is the priority number one for the 
government, and we see that this should be the priority also 
not only for the government, but for all the society.
    Just after the government started to develop the strategy 
on interethnic development--and I believe that it is--we know 
that the--all the interethnic--all the ethnic minorities and 
civil society has participated in the development of this 
strategic document, which will be, or which is already 
presented to the public yesterday. I think this document should 
be presented yesterday, and I think there is action plan for 
the interethnic development which includes all the interests of 
ethnic minorities there. And this is the actual action plan, 
which we believe will be adopted in a few days, maybe these 
days where the assembly of peoples of Kyrgyzstan is gathering 
together to see these documents and to discuss the plans.
    With regard to the cases and violations, rapes and 
tortures, of course this happened, and nobody can deny about 
that. And we have almost--more than 5,000 cases, and Kimmo 
Kiljunen also informed about these cases, and of course it's a 
huge cases: 5,000. The main purpose for this, of course, for us 
it is to provide open, transparent, and fair, objective 
judicial process for all these cases. And the President of the 
Kyrgyz Republic and the government is doing--putting all the 
efforts in order to--and we understand that only the fair, 
objective consideration and fair, objective process can help 
for the reconciliations. And we do all our efforts for the 
reforms in the judicial system in the same time. We are also 
working hard in order to reform our law enforcement system. We 
are also working hard in order to see what was recommended by 
Kiljunen's report, that he was saying that there was a lack of 
representation of other ethnic groups in the judicial system, 
in the law enforcement system. So all these gaps will be taken 
into account, and we are in the process of this reform.
    Mr. Smith. Let me ask you, if I could: Do you believe that 
the political will is there to empower sufficient numbers of 
prosecutors to collect evidence? And you know, time is no 
friend of any prosecution. And if time is allowed to elapse, I 
would be concerned--I think we all would be concerned--that 
people's memories might fade--even though this is very recent, 
particularly for the people who have been tortured or raped or 
both in prison. Is this something--if you could answer that--
but also, is this something that's going on current, real-time, 
right now? Or can you assure us that the security apparatus, 
the police service is not engaging in these kinds of abuses, 
like right now, today?
    Amb. Djumaliev. Thank you. Thank you for this question. So 
it's--I cannot say that we still have such a situation right 
now. That was happened. That was happened before, and we have 
5,000 cases which happened on this--what you just mentioned.
    I think it is clear that security forces and the law 
enforcement bodies is taking under control of the situation in 
the south. And we say that we have localized this situation 
just in very few days, but of course that was--the violations 
was--we see the report by the NGOs that there were some cases, 
also, which is the most--the continuing--the violation in the 
process. But every case is under the control of the law 
enforcement representatives there. And there was also mention 
that the OSCE representatives also--the consultancies there in 
order to assist our law enforcement representatives to 
proceed--how to deal with such a difficult situation, which we 
faced first time in the south of the region.
    And I would definitely say that right now, there is no such 
a situation in which we are worrying about that. Thank you.
    Mr. Smith. My understanding is that there are at least some 
people in the political parties calling the OSCE community 
security initiative, the small number of trainers who are 
unarmed that have been deployed there--matter of fact, an 
original call for 50 such unarmed OSCE trainers was rejected--
they're calling it an occupation force.
    And I'm wondering--it would seem to me that right now 
Kyrgyzstan needs more, not less, such trainers to have a 
presence there, particularly when it comes to training police 
on basic human rights norms. What's your thought about the 
community service initiative? Do you welcome it? Does your 
government welcome it? And more importantly, do you think it 
should be expanded?
    Amb. Djumaliev. Mr. Chairman, of course this was a very 
sensitive issue even we started taking decision to get the OSCE 
police contingent to Kyrgyzstan. And at the same time, it was 
even very difficult to get Kimmo Kiljunen's commission to 
Kyrgyzstan. But there was a political will that we should do 
it, and we should decide that we need to make open, transparent 
investigation process for all this situation.
    And with regard to the OSCE, it was also the strong 
resistance from the public society that we cannot allow to 
get--to bring the internal police in Kyrgyzstan, that they will 
investigate all the process. There was the misunderstanding 
about the OSCE presence in Kyrgyzstan, and I think the 
government--after the consultations, after the government 
provides more information to the public society. So finally, we 
also find that such a formal--which is acceptable both for the 
OSCE and for Kyrgyzstan--that we, at this stage, after the 
conflict was localized, we invited the consultants, not the 
police because, of course, the public was strongly opposed to 
getting in the police into the territory of Kyrgyzstan.
    Mr. Smith. What protections does someone have, particularly 
in detention, not necessarily when they are finally 
incarcerated but while they are still being interrogated, that 
would prevent or inhibit torture being imposed upon them? And 
has the Red Crescent or the International Committee for the Red 
Cross or any other body like it, but especially either of those 
two, been allowed unfettered access into the prisons and into 
pretrial detention?
    Amb. Djumaliev. At that time where I was actually in 
Kyrgyzstan--and we also appreciate the Red Cross efforts, which 
actually works strongly to provide any kind of assistance for 
the detention places. And I think we should continue to 
cooperate with Red Cross and Crescent in order to--in this 
sector. I think-- in this issue--I think this is important, and 
we do appreciate that they have good expertise and good 
practices to deal with such an issue in such situations.
    Mr. Smith. And as you know, they report only to you. Let me 
add our Commission's voice in asking that your government 
robustly get them into the scene. It does have a chilling 
effect, if you will, on certain police misconduct if there is 
an ever-increasing presence of those credible international 
experts who really know how to--I mean, they don't care what 
government they go to. And they'll do it here in the United 
States, as you know, as they did in Guantanamo. It's important 
that they have unfettered access. So I just want to add our 
voice to that plea that you do more to get them into the 
country. OK.
    Let me ask you--there are number of reports in the media 
that cite a steady exodus of Uzbeks and other minorities from 
Kyrgyzstan as a result of the ongoing harassment, attacks and 
threats of violence, and the loss of properties. What is the 
government doing to prevent that exodus, and who are acquiring 
those properties when they are confiscated?
    Amb. Djumaliev. All these cases, Mr. Chairman, under the 
investigation now----
    Mr. Smith. Yeah.
    Amb. Djumaliev. ----under the investigation process--and 
for me, from here, it's very difficult who are they are. And of 
course this is our Kyrgyz citizens, first of all, who are 
involved in all of these crimes. And the government is taking 
all the efforts in order to make the open, fair, transparent 
process of investigations and to prevent further on these 
difficult issues.
    You mentioned that before the court will conclude, it's 
very difficult to say that the--differentiate whether it is 
ethnic--which ethnic groups are involved in this process. But 
this is the--first of all, the criminal cases-- we accept that 
this is the criminal cases under the investigation process, and 
we will do our best to punish for all those who are involved in 
these crimes.
    Mr. Smith. One final question--and I asked this of Kimmo, 
if he knew anything about this: I'll never forget, in the 
1980s, I joined Armando Valladares, who spent almost two 
decades in Fidel Castro's gulags, was tortured without mercy, 
and actually wrote a book called ``Against All Hope,'' 
chronicling his two decades of resistance inside the gulag.
    He led the effort at the Human Rights Commission, and I was 
with him in the late 1980s when he got the U.N. to do a fact-
finding mission to Cuba. And they were told they would have 
unfettered access to people. There would be no retaliation. And 
almost everyone who spoke to the U.N. investigators were 
retaliated against.
    Now, Kimmo has been to Kyrgyzstan. They have interviewed 
people. They have spoken to large numbers of people. Other 
investigators surely will be doing the same as time goes 
forward, including indigenous people from your own country. 
What kind of protections do people have who come forward with 
information or already have, from when they are on board a 
plane if they're internationals, so that the retaliation is not 
imposed upon them and beatings and other misfortunes come their 
way. Do you have anything in place to ensure no retaliation?
    Amb. Djumaliev. Of course this is--this is very important--
--
    Mr. Smith. Yeah.
    Amb. Djumaliev. ----that we would avoid the retaliation 
after the report has been published. And the government has 
taken all the efforts in order to prevent any kind of 
provocation or repetition of such a situation after the reports 
have been released. And we were waiting, actually, and it was 
very difficult at that time. We commemorated the one-year 
anniversary just recently, and I think that the--God bless us--
that we will pass through very difficult time of period for us. 
And the government is doing all the efforts in order to 
prevent.
    With regard to the human rights, with the UNHCR 
commissions, that we are also cooperating with the 
international experts there. And just a few days ago, there was 
a resolution taking on Kyrgyzstan for technical assistance in 
Kyrgyzstan, and these issues also will be covered under the 
technical assistance efforts of the international community. 
Just after the situation happened--the interethnic violence 
happened in Kyrgyzstan, that was the first resolution under the 
U.N. High Commissioner commission to call the international 
community to help Kyrgyzstan in preventing a repetition of such 
a situation, and we are very grateful that the international 
community expresses support for Kyrgyzstan. And we are open, 
also, for cooperating with them because we also feel that we 
have lack of experience in such a situation, and we also think 
that international community also should ask, and this will be 
also lessons for the international community that we were not 
able to avoid such a situation in advance, that we faced this 
after the June events.
    Mr. Smith. Kimmo would like, I'm sure, to travel back to 
Kyrgyzstan. He's denied access or entry. I hope that will be 
revisited. And an analyst for the International Crisis Group 
would also like to visit, and that person has been denied a 
visa. That's something you could look into as to why--I mean, 
the ICG on a number of countries has provided very useful 
insights and very fine recommendations to countries that are 
experiencing crisis, and yet their analyst can't even get into 
the country. Do you know why they were denied that visa, that 
person?
    Amb. Djumaliev. Mr. Chairman, I just talked to the 
representative of ICG and requesting this issue. I have to find 
why the visa was not still issued, and I think there's--I don't 
know, actually. This is my first time and I've heard that she 
was not able to get visa from our embassy. But I will check it 
out, and of course I think there's--there should be no reason. 
With regard to Kimmo, I told you that the president doing steps 
further in order to recall the Parliament to reconsider its 
decision.
    Mr. Smith. Thank you. And I'll only conclude by two things. 
First, thank you so much for making yourself available to come 
into a congressional hearing of this kind--a Helsinki 
Commission hearing--for your answers, which I believe are very 
candid--and I thank you for that--and for your willingness to 
work with our Commission going forward, especially on a number 
of these items that could be very quickly addressed.
    And above all, I would ask that those who have committed 
crimes, that there be no--there is no statute of limitations on 
crimes against humanity or any other serious capital crime, and 
I would hope that those who have committed these crimes will 
themselves face long jail sentences after going through a fair 
and balanced prosecution. So please-- it's very important at 
the end of this that it's not glossed over and somehow, in a 
spirit of reconciliation, those who commit crimes don't do 
time. So thank you.
    Amb. Djumaliev. Thank you, Mr. Chairman. Thank you.
    Mr. Smith. I appreciate it, Mr. Ambassador.
    I'd like to now introduce our third panel, beginning with 
Dr. Martha Olcott, a senior associate with the Russia and 
Eurasia Program at the Carnegie Endowment here in Washington. 
Dr. Olcott specializes in the problems of transitions in 
Central Asia and the Caucasus, as well as the security 
challenges in the Caspian region more generally. Dr. Olcott has 
testified before the Commission before, so we welcome her back.
    Then we'll hear from Dr. Alisher Khamidov, professor 
lecturer at Johns Hopkins University School of Advanced 
International Studies. Dr. Khamidov began his career as 
director of the Osh Media Resource Center, a nonprofit 
independent media association in southern Kyrgyzstan. He later 
worked at Notre Dame University's Sanctions and Security 
Project, the NEH Summer Institute and on Eurasian Civilizations 
at Harvard, and at the Foreign Policy Studies Program of the 
Brookings Institution. He was in Osh during the June 10th 
violence, so we look forward to his firsthand account and any 
suggestions that he might have for our Commission on how we 
should proceed as well as the country of Kyrgyzstan.

 DR. MARTHA BRILL OLCOTT, SENIOR ASSOCIATE, RUSSIA AND EURASIA 
      PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Dr. Olcott. Thank you very much. It's an honor to be here 
to testify before you today.
    I would like to focus my comments, which I'm just going to 
share the highlights of--and I've submitted a written 
testimony--I'd like to focus my comments on the reaction to the 
report of the independent international commission of inquiry, 
the reaction that it evoked in Kyrgyzstan and what may be the 
implications of this reaction for future political, social and 
ethnic developments in the country.
    I've not traveled to southern Kyrgyzstan since the June 
violence. I've made six trips to Kyrgyzstan over the past 18 
months, and I happened to be in Kyrgyzstan shortly after the 
report was published and got to interview many of the people. I 
got to talk with people of various levels of society and 
government about it.
    I think before I go further in my comments, I really want 
to commend the stellar team that prepared the report. They put 
in extraordinary effort in what was a tremendously difficult 
endeavor and came up with a detailed account of terrible acts 
that destroyed so many lives, and made many, many very useful 
recommendations. The end product will serve as a lasting 
indictment of what went wrong in the southern part of 
Kyrgyzstan last June. And the recommendations they offer 
reflect much thought and discussion and have provided the 
President, the Government and Parliament with a great deal to 
think about. And, as has been noted here today, many of them 
are already under serious discussions.
    I do think, as we go forward, the Government of Kyrgyzstan 
deserves credit for creating the conditions necessary for the 
inquiry to go forward. It really was the first of its kind in 
the region.
    I would make one criticism of the report, and this is 
really what I'm going to focus some of my testimony on, the 
reaction. The only criticism I would make of the report is that 
its findings and recommendations were not presented in a way 
that was designed to make them palatable for the Kyrgyz polity, 
that--I'm not speaking of the findings themselves, but the 
question of audience in the report was one--was the Western 
audience that had really--and the international audience that 
had really sent them.
    And because of it, this very strong reaction--and the 
people in Kyrgyzstan compare this report to their own homegrown 
efforts to investigate what occurred--this very strong 
homegrown action will--I fear will increase the difficulty of 
implementing some of the very important recommendations that 
the commission has offered.
    The fact that there's been such a loud outcry against some 
of its recommendations, especially--and I'll come back to this, 
the fact that in the first paragraph of the recommendations, 
they urge that the name of the country be changed--the fact 
that there's been such a loud outcry, including the deplorable 
statement that Kimmo Kiljunen is persona non grata, I think 
speak to--is a great--demonstrates the amount of political 
grandstanding going on in Kyrgyzstan today, but it also points 
out the sharp division of power that we have in Kyrgyzstan.
    We've heard today from a representative of the government. 
Power is really divided right now between a president who, 
since the June referendum, has very little power, actually--and 
what she exercises, she exercises with enormous political 
skill--with a government which has a great deal of power and 
reports to a Parliament which has no experience in supervising 
executive power. And this is the atmosphere in which the 
recommendations are moving forward.
    I think that a majority of Kyrgyz citizens would not take 
exception to the vast majority of recommendations of the 
report, especially those that deal with public safety and 
security. And most would probably even support the majority of 
recommendations on accountability and on the need for criminal 
and disciplinary accountability, although they would probably 
counsel you, with a semi-quasi-fatalistic mode, that it may 
take longer to get these changes implemented than one would 
like, having been experienced in Kyrgyzstan.
    What I think most ordinary Kyrgyz citizens and political 
figures find difficult to accept is the idea that Kyrgyzstan 
may have been more morally culpable than--I'm sorry, that 
ethnic Kyrgyz may have more morally culpable than ethnic Uzbeks 
in the events of June. And this being pushed in their face by 
this report is the thing, I think, that they find it really, 
really difficult to accept, which is one of the reasons why the 
kinds of confidence building and reconciliation that the 
commission is talking about and that the president and 
government have made supporting gestures towards is so 
critical.
    For most ethnic Kyrgyz, I think, it is important to them 
that the violence lasted only a few days and that it didn't 
turn into a civil war. In that, they try to take personal and 
emotional satisfaction in, rather than focus on the questions 
of responsibility that the report made so clear.
    To me, the most controversial recommendations of the 
commission from the point of view of Kyrgyz polity--and here, I 
include ethnic minorities of Kyrgyzstan and not just ethnic 
Kyrgyz, save the Uzbeks, is the idea that the country should 
renamed, or that there should be a special status granted to 
the Uzbek language, a constitutional status. This is very, very 
controversial, and it is not something that is widely supported 
outside of the Uzbek community.
    I'm going to just switch the--we've been here really a long 
time, and everything is in the testimony itself. I think it's 
important, as we go forward, for us to remember that the 
country is, as a whole, experiencing a trauma, the trauma that 
brought down the Bakiyev Government and living in this state of 
incomplete political resolution with an interim president, a 
very new parliamentary system that's not supported, if public 
opinion polls are to be believed, by the majority of the 
population; and on top of it, this trauma in southern 
Kyrgyzstan.
    The trauma that's experienced is experienced differently by 
those people who are in southern Kyrgyzstan and those people 
who are living outside of southern Kyrgyzstan. But all groups 
feel traumatized, and all groups feel aggrieved.
    And it's in this environment that the recommendations go 
forward. And it's in this environment that the recommendations 
will be considered.
    Let me just go to the very last conclusion of my testimony. 
I think it's really critical that the government and the 
Parliament--[chuckles]--and the President all be pressured to 
try to move towards the kinds of efforts at reconciliation, 
many of which are in the report.
    But how should the Helsinki Commission itself respond? 
Well, defending human rights--I believe that it's important 
that the Helsinki Commission continue to be what you have been 
for decades now, strongly defending the human rights of of the 
entire population of a country, regardless of their ethnic 
origin.
    But I do not believe that the Helsinki Commission should, 
as the independent investigative commission did at one point, 
cross the line and become prescriptive about other aspects of 
nation building.
    The lives of ethnic minorities everywhere were disrupted 
when the U.S.S.R. fell apart, and the situation is particularly 
sad where people live in communities that their ancestors lived 
in for generations and now find themselves as minorities. That 
violence of June 2010 is a tragedy and the victims of violence 
and their survivors should be compensated, while those 
responsible should be held accountable.
    But the shift away from Uzbek-language education is not a 
tragedy, nor is the failure to rebuild Soviet cultural 
institutions in southern Kyrgyzstan. In my opinion, it dilutes 
the power of the human rights message when outsiders seek to 
engage in that degree of nation building, even when they do so 
with the best of intentions.
    The political freedom of all citizens of Kyrgyzstan should 
be defended equally; freedom of press, religion, assembly, 
evenly applied. And the Government of Kyrgyzstan should 
continue to be pressed to ensure that legal safeguards are put 
in place to guarantee that local security and judicial 
officials apply the law evenly regardless of the ethnicity of 
the accused or are held accountable for their actions.
    But it is my opinion that we cannot even the playing field 
between ethnic Kyrgyz and the various ethnic minorities of the 
country. And those international agencies and actors that seek 
to do so risk losing their credibility with the Kyrgyz polity 
and the Kyrgyz elite.
    The Kyrgyz language is going to dominate in Kyrgyzstan, and 
those who can't speak it--and actually, most ethnic Uzbeks 
can--and those who can't speak it will have a harder time in 
public life in the future. That is the pattern everywhere in 
the Central Asian region and will be the Kyrgyzstan as well.
    The ethnic Uzbeks in Kyrgyzstan face a difficult set of 
choices in coming years: adapt to the changing political 
realities in Kyrgyzstan--and this doesn't mean that they 
shouldn't be introduced--I mean, that there shouldn't 
affirmative action pressures to make sure they're introduced in 
sectors in society where they're under-represented--or think 
about relocating.
    These choices are not of their making, but I do not think 
that international actors can do much more than press the 
Kyrgyz Government to respect the basic human rights of all 
their citizens. To take this more limited approach may make us 
more effective in trying to ensure that peace prevails in 
southern Kyrgyzstan, but there will be no guarantees.
    And to not take this approach, to not focus on human rights 
in its purest definition, is to risk that the most important 
recommendations of the Kiljunen commission don't get their fair 
hearing in Kyrgyzstan.
    Mr. Smith. Thank you very much. Appreciate it.
    Please, Dr. Khamidov.

  DR. ALISHER KHAMIDOV, PROFESSORIAL LECTURER, JOHNS HOPKINS 
                       UNIVERSITY (SAIS)

    Dr. Khamidov. Mr. Chairman, I want to thank you for having 
me here to address the important question of ethnic tensions in 
my native country, Kyrgyzstan.
    In June 2010, I was among those Kyrgyz citizens of Uzbek 
origin who fled to the Uzbek-Kyrgyz border, trying to flee the 
violence. Just like many other Kyrgyz citizens, I cherished 
hopes that Russia, Kazakhstan and other countries, with which 
Kyrgyzstan has partnership relations, would intervene to stop 
the violence. Our hopes were dashed when Kyrgyzstan was told by 
the Collective Security Treaty Organization uniting these 
countries that it has to deal with the conflict on its own. And 
so suddenly, a country where interests of many countries 
overlapped became no one's backyard.
    There are many explanations for what happened in south 
Kyrgyzstan. There's historical explanations, saying that, oh, 
these two communities, they hated each other for centuries. 
There are economic explanations pointing to economic 
disparities between the two groups. And there are other 
explanations.
    But really, the debate about causes of the conflict misses 
an important issue. I would argue that, to understand last 
year's violence, we need to have a more nuanced and holistic 
view of Kyrgyzstan's past and present. The violent regime 
change and the bloody interethnic clash in 2010 are actually 
symptoms of a set of broader and longstanding challenges or, I 
would call, chronic ailments that have afflicted Kyrgyzstan and 
other Central Asian republics, including Russia, since 
independence. If these ailments are not treated properly and 
adequately, turmoil will continue to increase.
    And let me briefly outline what are these ailments.
    Twenty years ago, when Kyrgyzstan became independent, it 
faced four key challenges or ailments. One was dealing with the 
country's political institution: Should we preserve Soviet-era 
political institutions, or should we build a really democratic 
state?
    The second challenge was that of the country's identity: Do 
we want to build a country which will be a home for all ethnic 
groups, or do we want to create a country which would be run by 
one ethnic group?
    The third challenge related to the country's economy: 
Should we preserve the country's Soviet-era system with its 
social perks, or should we create a country which will be 
driven by market reforms?
    And the final challenge was related to foreign policy. 
Kyrgyzstan was a small country; now it was independent, and now 
it had to deal with enormous issues of foreign policy. So the 
real challenge was, do we want to build an independent foreign 
policy course, or should we stick to Russia?
    So those were the challenges. Twenty years later, after two 
bloody ethnic conflicts, two bloody revolutions, Kyrgyzstan has 
made full circle, and we're back at square one. We're still 
dealing with the same challenges.
    I'd like to basically address two questions here: why there 
has been no progress; and the second, where might things end. 
To understand these--to answer these questions, it's important 
to look at the country's history.
    Now, there are various explanations to the question of why 
there has been no progress. Some emphasize the country's 
history again, saying that it's the nomadic past and its Soviet 
illiberal past that has made the country more vulnerable to 
authoritarianism and political volatility. And then there are 
those who say that, look, Kyrgyzstan is in a bad authoritarian 
neighborhood; how can a democracy or system develop there? And 
then, there are those who emphasize economic factors. They say 
that, look, the country is lacking natural resources; unlike 
its neighbors, it does not have resources, so it's hard for its 
elites to create a very robust system.
    I would say that the main problem of Kyrgyzstan, actually, 
has not been lack of resources or other issues. I would say 
that--I emphasize the role of leadership or lack of it as the 
major source of Kyrgyzstan's troubles. The major flaw of the 
Kyrgyz leaders was that they failed to find lasting solutions 
or effective treatments for the four key ailments or challenges 
outlined above.
    To be more precise, Kyrgyz leaders have continuously 
undermined stability by engaging in systematic alteration of 
political rules and arrangements whenever such rules did not 
suit their immediate political preferences. More importantly, 
Kyrgyz leaders failed to realize their historic roles as the 
founding fathers of the new nation and the responsibility that 
flows from such a realization.
    Briefly, President Askar Akayev--let me elaborate just a 
little bit more--President Askar Akayev, he was Thomas 
Jefferson of Central Asia. He liberalized the country; he also 
ushered in economic reforms, but only to change his course in 
the early 2000s, after the U.S. base was established. This 
turnaround on his own policies helped to undermine his own 
rule.
    People revolted against President Akayev. The president who 
came after him--instead of learning the lessons of his 
predecessor, he continued this authoritarian course. Rather 
than dealing with various political groups and community 
members, and rather than really allowing--rather than dealing 
with these four key challenges, he basically resorted to 
creating a very authoritarian regime.
    So--and actually, I would say that in March 2005, it was an 
alliance of the wealthy and the poor that toppled an 
authoritarian regime; in April 2010, it was a combination of 
economic sanctions from Russia and protests by poor and 
unemployed residents in such northern towns as Naryn and Talas. 
All this shows that President Bakiyev, he failed to really 
create a debate or lead the country to really resolve those 
four key ailments or challenges.
    People who came after him, the provisional government, were 
not prepared to assume power, lacking broad legitimacy and 
being driven by their survival instinct. The new authorities 
engaged in chaotic and populist measures, such as a reversal of 
utility tariffs imposed by the previous regime, and so forth. 
But although they realized the need to address longstanding 
transitional dilemmas, they lacked resources and the strategic 
direction. They got their sequencing wrong in terms of dealing 
with the four challenges I mentioned, despite various signals 
in April that ethnic tension was really palpable. Authorities 
focused on the division of political power in Bishkek. So as a 
result, when the ethnic conflict erupted in Osh, they were not 
prepared. They lacked control over government security service, 
let alone rampaging crowds.
    So where might things end? I would say that new leaders 
have made attempts to resolve these longstanding dilemmas, 
transition dilemmas, but these efforts have been half-hearted 
and ineffective. Let me describe why.
    The first challenge, the division of powers--the 
parliamentary system is not supported by a lot of people. 
According to recent polls, the majority of Kyrgyz citizens want 
to resort back to a presidential system akin to Russia. 
Decisionmakers in Russia are opposing this parliamentary 
system; they have been critical of it. Some influential 
politicians in the Parliament, they want to change the 
constitution again.
    The second challenge, forming a national identity--they're 
not doing much, actually. There is this assumption in 
Kyrgyzstan that, look, the Osh events have resolved this 
identity crisis or challenge by establishing the pre-eminence 
of the ethnic Kyrgyz and relegating ethnic minorities to a 
secondary status positions. This view is supported by ethnic 
Uzbeks and Kyrgyz. As one ethnic Uzbek told me, look, Uzbeks 
lost, the Kyrgyz won; now, we're secondary and there'll be less 
conflict.
    The government is not challenging this erroneous 
assumption. It's basically living with the status quo. And this 
is really promoting all these nationalistic and chauvinistic 
forces and aggravating tensions. And rather than deal with the 
conflict in a rather effective way, they are basically adopting 
the Soviet-style tactic of sweeping the unpleasant events under 
the rug and putting forward a mantra of friendship of peoples. 
This strategy is flawed and it resembles the one adopted by 
Kyrgyz authorities after the June 1990 violence.
    So they're also not addressing the third challenge, which 
is economy. Rather than really promote a debate which would 
discuss this long-term problem, they are again engaging in 
populist measures by increasing public spending, salaries, and 
continuing with these expensive construction projects.
    Finally, the Kyrgyz authorities are again following the 
footsteps of their predecessors in terms of indeterminate 
foreign policy. Their relations with their neighbors are really 
bad. Uzbekistan is really pissed off or is livid about the way 
Kyrgyz authorities dealt with the whole crisis. The Uzbeks are 
concerned that the revolution will continue. Kazakhs are also 
unhappy with the instability. Tajiks are also angry.
    More importantly, Moscow is unhappy about Kyrgyzstan's 
choice of policy. And attacks against Russian business are not 
helping Kyrgyzstan's image in Russia. And Western partners are 
also becoming suspicious of all these talks in Bishkek about 
changing the system again.
    Finally, Kyrgyzstan finds itself at a crossroad. And so the 
Osh events, they took their toll, but they provide a window of 
opportunity to finally tackle these four transition challenges. 
If the Kyrgyz citizens will have this painful but important 
debate about how to solve these challenges, and if this process 
will include all citizens, Kyrgyzstan is--will have, I would 
say, a chance to become a real model for Central Asia. If they 
will fail, Kyrgyzstan is set to continue with this 
revolutionary and painful ethnic conflict course.
    Thank you.
    Mr. Smith. Dr. Khamidov, thank you very much for your 
testimony, and Dr. Olcott. Thank you for your patience, too, 
because I know this has been a long day. But frankly, the more 
we build this record, and we're able to then act upon it--and 
you provide incisive insights for us to act upon. So I thank 
you for your written statements, your oral statements, which 
were extraordinary.
    Let me just ask a couple of questions, and then we'll 
conclude the hearing.
    How would both of you or either of you, or whoever wants to 
address this, assess U.S. policy towards Kyrgyzstan, especially 
what happened June last year? Have we responded well, robustly? 
Have we been asleep at the switch? And secondly, on the issue 
of aid to southern Kyrgyzstan, is reconstruction aid flowing 
there? How much of it's coming from the U.S.? If you could 
answer those.
    Dr. Khamidov. Yes, thank you, Martha.
    Dr. Olcott. [Chuckles.]
    Dr. Khamidov. U.S. policy towards Kyrgyzstan after the 
violent events--I must tell you, Mr. Chairman, that the United 
States has shown genuine interest in Kyrgyzstan, its problems. 
And I think the people of Kyrgyzstan, they realize it. The 
United States, among the first, condemned violence and called 
for peace and took measures to stop it.
    But there are also some problems with the U.S. policy. In 
the perceptions of many Kyrgyzstanis, U.S. policy is not 
principled. There is this U.S. base and then there are human 
rights, and the U.S. policy shifts between these two issues.
    More importantly, I would say that the Kyrgyzstanis have 
this perception of themselves as exceptional in the region 
because they were the first to democratize. And so they think 
that they are the darling of the United States and other 
Western countries. And this is the message that the U.S. 
administration, namely, the Barack Obama administration, has 
fostered by telling the Kyrgyz that, look, you are a model 
again; now you will be a model for the Middle East. These kind 
of reassurances are useful, but they also mislead Kyrgyz 
citizens. So I would say that U.S. policy has its flaws and its 
positive aspects.
    In terms of reconstruction efforts, I would tell you that a 
lot of donors have adopted this policy of wait and see. They're 
concerned; they're not sure that the money that they will 
allocate to Kyrgyzstan and its regions will be spent properly. 
There are concerns of transparency, mismanagement, corruption. 
But they are ready to issue money. The World Bank announced 
that its ready to approve a $70 million loan in reconstruction 
and various projects.

    Mr. Smith. Have we had a consistent policy about torture 
and rape in the prisons in pre-detention?
    Dr. Khamidov. The United States has systematically 
criticized failures in areas which you mention.
    Mr. Smith. Thank you.
    Dr. Olcott. In terms of U.S. policy, I know we've had a 
systematic policy of criticizing rape and torture, but I think 
abuse in the prison systems in Central Asia is not new. It came 
to the forefront here because the argument was, it was being--I 
hate to be so brutally blunt--inequitably applied--that one 
group was being brutalized more than another group, that Uzbeks 
were being disproportionately arrested and they were being 
brutalized.
    But I think that it would be a real mistake to see the 
Kyrgyz system as gentle to Kyrgyz. It has been a brutal 
judicial system. There have been efforts made to reform it; 
there have been periods in which reform went faster than 
others. I think there would be a capacity to soak up more 
democracy assistance in the area of judicial reform and 
security system reform than is likely to be on offer.
    And I think that this is really an important focus that you 
raise. There's a difference between U.S. policy and the ability 
of the U.S. to deliver large amounts of aid on projects that we 
all recognize as good projects. As you know better than I, 
there are lots of competing demands on every tax dollar today. 
And by comparison, the amount of money being spent in Central 
Asia is very, very small.
    And on top of the traditional difficulties of delivering 
anything other than humanitarian assistance rapidly, what you 
had aggravating the situation in Kyrgyzstan was the fact that 
you didn't have a legitimate government for so long. So you 
went months until you had the elections. And until the last set 
of the October elections were completed, there wasn't really a 
government that had the credentials to negotiate many of the 
larger international financial loan agreements.
    So there has been a slower process than people in country 
would like to see. That's not necessarily a criticism of us.
    The last point I would make, though, is that there is one 
thing I think that the Kyrgyz desperately need as they go into 
this election period, is a greater sense of awareness of what 
the economic realities that the country faces are. Part of the 
victory of populism is that no one is really forced to be 
realistic in their political rhetoric. They promise--there's 
one person who was talking about running for president who's 
talked about raising the GDP to roughly $9,000 a year, like a 
four-fold increase in a five-year period--it's impossible. But 
people can take these propositions as serious ones.
    So in addition to talking about interethnic accord, I think 
if we want democracy to succeed in Kyrgyzstan, we really have 
to talk about empowering an electorate and a political elite at 
the lower levels--[chuckles])--of that elite with more 
knowledge, with working towards increasing the level and 
quality of political debate.
    One last comment about U.S. policy: I don't know that we 
were asleep at the switch, but the fact that we went through a 
period where we changed ambassadors--you know, we had a period 
in which there was an ambassador at the end of the term--it's 
not my place to say--but was not viewed in the polity as being 
terribly effective. And then, until we got the new person out 
there, named and out there, that whole process took months and 
months. I mean, the new ambassador's been out there just under 
a month, you know? [Chuckles.] So I don't think we were asleep 
at the switch, but I do think that there are periods where we 
could've been more effective.
    Finally, I think it's going to be a challenge for the U.S., 
as Kyrgyzstan moves, if they hold presidential elections as 
scheduled, if they keep this timetable and don't experiment 
again with changing it--this policy has been very much tied at 
the public level to Roza Otunbayeva as President. It's a weak 
presidency. She's using power very, very effectively, but she 
doesn't have very much power.
     I think that U.S. policy has to be a policy that interacts 
equally with all levels of the political establishment. Where 
power is, we should be interacting directly; that means with 
the Prime Minister's office and the government and the 
Parliament, where even if we don't like some of the things they 
do and we find them politically inexperienced, we really have 
to get our message across to all these different people and 
find ways to interact, because we run the risk, when President 
Otunbayeva's term ends and a new person replaces her, that we 
will be so identified with the current president and the issues 
of the base that we will not have the kinds of levers to make a 
quick adjustment to be effective in the country.
    Mr. Smith. Thank you. The upcoming elections--will these 
likely be positive? How will the tragedies of June play in 
those elections, the campaigns? And given the people that are 
running, where--what happens after post-election vis-a-vis the 
terrible tragedy?
    Dr. Khamidov?
    Dr. Khamidov. Mr. Chairman, Kyrgyzstani political actors 
basically divided into two camps: There are northern 
politicians, and then there are southern politicians. Most of 
the southern politicians, they maintain close ties with the 
regime of the former president, whereas a lot of northern 
politicians were in the opposition. So really, the fight, or 
the struggle, is between these two camps of politicians. There 
is this acting Prime Minister, Mr. Atambayev Almazbek; he's 
slated to run for presidency. And on the other side, in the 
southern camp, there are also two or three candidates.
    But the problem is that Mr. Kiljunen's report, as well as 
the other issues, have become caught up in this struggle 
between these two camps. It's not only Kimmo Kiljunen's report, 
but also broad issues. The ones that I mentioned, the four 
challenges, the economy--all of these are becoming problematic.
    And I must tell you that many Kyrgyz citizens, they are 
very much driven by this desire to have a strong leadership. 
And whoever is going to project himself or herself, that person 
will get votes.
    There are also forces who want the current president to 
stay, because they're afraid that the struggle between these 
southern and northern camps may become fatal. We're talking 
about inter-Kyrgyz conflict. And so there are calls for 
Otunbayeva to stay for one more year.
    Dr. Olcott. I agree. I wouldn't bet my pension on the fact 
that there will be an election in the fall. I mean, I think--
and I'm not predicting revolution. I think the situation, even 
in the south, is pretty stable right now. People want quiet, if 
they can get it, which is one of the things that are pushing 
the idea that people are beginning to float that maybe they 
should wait a year for an election.
    There's also the question of changing the form of 
government. I think, in my opinion, as soon as there is 
presidential elections, there will be a serious call for 
constitutional reform that will leave a stronger presidency, a 
weaker Parliament, but still some form of power sharing that--I 
think there's enough support for some form of parliamentary 
power.
    But I think it's very difficult to, A, predict whether 
there won't be popular elite pressure as well as popular 
pressure for Roza Otunbayeva to stay--even though she's made it 
clear that's not her intent, that she sees herself as a 
transitional figure--to stay for another year or two years, 
whatever the agreement is, and that part of that would be that 
there is a discussion of constitutional reform. Again, there's 
a big discussion now--do they have the money for an election? 
Ms. Otunbayeva said yesterday that there will be new candidates 
coming out.
    I think that everybody in the elite would feel more 
comfortable moving towards a presidential election if there 
were some sort of consensus around a candidate, even in 
advance, and the belief that the election itself wouldn't serve 
to tear the country apart. And right now there's no consensus. 
There are several figures that are eager to run, and they are 
under enormous political pressure, like Kamchybek Tashiev, 
who's been one of the southern politicians, been at risk of 
losing his parliamentary immunity and the source of 
demonstrations in the south.
    So there's going to be this building of political tension--
[chuckling]--over the next days and months--and I think if the 
elite feels the tension is at risk of overflowing, they will 
try to find ways to negotiate among themselves to release it, 
because I agree with Dr. Khamidov that there were key forces in 
the country that were active in April and May of last year, and 
the government didn't read the situation right and didn't move 
quickly--the interim government, to stabilize the situation in 
the south in advance of these forces being able to push beyond. 
I don't think in the next year people are going to make that 
mistake.
    I think it was painful to people ending the stalemate of 
the last 20 years in the south. Nobody is going to be 
interested in ending this much more fragile current stalemate 
in the south. So I think the election's become a real roll of 
the dice if they move forward. And it'll be interesting to see, 
as long as you don't have--as long as you're not living there 
in this moment of great interest, it'll be interesting to see 
what happens.
    But I'm more confident that we're not going to see a 
repetition of last June in the immediate future. There are 
always unpredicted events that could happen that would provoke 
it. If there was sudden destabilization in Uzbekistan for some 
reason, that would again change--you know, if somebody suddenly 
died, that would change the political balance. But in the 
absence of something unforeseen, I'm personally optimistic that 
we have a window in which to try to be more effective in 
working towards ethnic consolidation or ethnic reconciliation.
    Mr. Smith. Could I just ask you, with regards to the police 
and other security personnel that have committed crimes against 
humanity or allegedly have done so, are you confident that they 
will be held to account individually and held--and put into 
prison for committing those crimes?
    Secondly, President Bakiyev, as we all know, is keeping a 
relatively low profile in Belarus, his current address. What 
residual influence does he have?
    And we also hear that Kyrgyz officials and ordinary people 
have accused the Uzbeks of seeking to create an autonomous 
region in Kyrgyzstan for Uzbeks. How do you rate those 
accusations? Are they credible?
    Dr. Olcott. [Chuckles.] We'll swap off.
    In terms of whether people will be held accountable, I 
think that this government and the President will make that 
attempt. If you're asking me to say whether they'll succeed, 
you know, I think it is always hard to be optimistic that 
people will succeed in getting an only partially reformed 
judiciary to behave fully responsibly.
    So I think that some people--I hope and think that a 
portion of those who should be held responsible will be held 
responsible and that imperfection in doing this will hopefully 
serve as an inhibiting example. [Chuckling.] I say that as a 
realist who's spent my whole adult life going to this region.
    Bakiyev, the autonomous region--the question of Bakiyev 
lying low--to me, the question--and this is another one of 
those topics that they talk about in the report but they don't 
talk about enough because it's really hard--it's very hard to 
get people to talk about organized crime, because people are 
frightened of being killed. And so when you ask these questions 
or the questions about Uzbek autonomy or any of those things, 
you're going into this area that people will talk about 
privately, but people are not comfortable talking about on the 
record or giving evidence about.
    I think that more important than the question of Bakiyev's 
influence is the presence of organized criminal groups in both 
countries, in Uzbekistan, in Kyrgyzstan. They've been under 
much better control in Uzbekistan. And under Kyrgyzstan, there 
were alliances between some of these criminal groups and, if 
not the Bakiyev family, people who closely supported them.
    This is still there, and that's what I mean by keeping 
forces under wraps. There's nobody interested in inciting it.
    When you talk about an autonomous region, I don't ever 
believe that that was a serious issue, that the Uzbeks of 
Kyrgyzstan, who are Kyrgyz citizens, who have lived in their 
lives in Kyrgyzstan, ever had the goal of creating an 
autonomous region of the Ferghana Valley dominated by ethnic 
Uzbeks. I think that when people talk about this, they're 
talking about it not hypothetically but more elliptically; that 
what they're really saying--and I can't swear I'm right on 
this--is that they're frightened of organized crime groups at 
some point where there's regime change in Uzbekistan, whether 
there's a transfer of power or where the Uzbek regime seriously 
weakens, that organized crime groups might join hands across 
borders and destabilize the whole area.
    So yes, politicians use the rhetoric of autonomous 
Uzbekistan--an Uzbek region there, but I think that's--you 
know, I don't see any evidence of it. But is there a risk that 
destabilized Uzbekistan and destabilized southern Kyrgyzstan 
could create a pocket of lawlessness with a lot of Uzbek crime 
bosses and no shortage of Kyrgyz, Russian or Tajik crime 
bosses, either--this is a very international organization--
that, I think, is real, and not something that one can ever put 
their hands on, because it's just too dangerous to talk about, 
to reveal the identities of people.
    Dr. Khamidov. Let me answer briefly. Regarding 
responsibility of security forces, central government finds 
itself in a bind. If they move with prosecution of the security 
forces, they will not have people who will support their 
regime. They are very weak. They are still fragile. Their 
control is still fragile, especially in the southern regions.
    And then there's this issue of who is not clean. You know, 
everybody has a fault in the Osh violence--the security 
services, the provisional government. So if they really bring 
to accountability some security forces, there is this question 
of, what about you? You are also complicit in those things.
    Regarding Bakiyev, he's toxic, meaning like--nobody wants 
to [fill it ?] with him. He's finished. I mean, one of the 
interesting things about Kyrgyz politics is that once people 
are removed from power, they are nobodies, actually, so they 
don't have much influence, except for money that they have 
perhaps pocketed and that they can ship to some people there.
    Regarding Uzbek autonomy or claims of autonomy, I've had 
many conversations with the Uzbeks, and they tell me, like, 
look, we live in this country; they played a bad trick with us. 
If they--the Kyrgyz leaders--told us from the very beginning 
that, look, you are living in a Kyrgyz republic, just stop 
pushing for political rights, we would have gladly accepted it 
or, just like in Uzbekistan, we're asking the Kyrgyz to accept 
the Uzbek domination. And the Uzbeks are saying that they 
didn't do that. They say that the Kyrgyz Government has allowed 
a lot of freedoms, they promoted ethnic minority rights, and 
that kind of encouraged to be more demanding of certain 
political rights. As a result, this policy led to a collision 
with various nationalistic groups.
    Mr. Smith. Thank you, Doctor.
    Let me just ask one final question, but I would like to let 
the record show that Ambassador Djumaliev has stayed throughout 
this entire hearing. We've had hearings before where, as soon 
as their panel, the ambassador's panel, was over, they're out 
the door. So I thank you for that, for that courtesy and again 
for appearing here today.
    One final question with regards to the U.N. Human Rights 
Council, as to whether or not they have listed this as an item 
for investigation and action to hold Kyrgyzstan to account--
have they done anything, as far as you know? And if not, why 
not? Any idea?
    Dr. Khamidov. No.
    Mr. Smith. OK. We'll pursue that and try to get an answer 
from the Human Rights Council., because it seems to me, when 
the council was formed to replace the largely discredited Human 
Rights Commission, which only focused on Israel and more Israel 
and Israel and then some more Israel, it was--we had promises 
that there would be very serious scrutinizing of nations, not 
just when they do periodic reviews, which all nations 
ultimately have to undergo, but when crises like this erupt. 
And hopefully it's never too late--[chuckles]--for them to 
undertake such an investigation, which will, I think, aid the 
efforts to give a full accounting and hopefully hold those who 
have committed crimes to account.
    Anything you would like to add before we conclude? Again, I 
want to thank you for your very, very fine, incisive commentary 
and analysis. It is of extraordinary value to the Commission, 
and I want to thank all of you. The hearing's adjourned.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Welcome to this hearing on addressing ethnic tensions in 
Kyrgyzstan, the only country in central Asia where street protests 
have, in recent years, twice led to changes in government. Kyrgyzstan 
is also the only state in central Asia which has experimented with a 
parliamentary form of government, so it stands out in two very 
important ways.
    But the focus of today's hearing is the terrible ethnic violence 
that erupted one year ago this month, shortly after the April 
revolution that toppled former President Bakiev, and what the Kyrgyz 
government should do to address it. In June 2010 ethnic Kyrgyz and 
ethnic Uzbeks clashed in the southern region of Osh. By the time the 
worst was over, 470 people were dead and over 400,000 displaced. 
Thousands of homes and businesses were destroyed. The clashes threw a 
dark shadow on the hopes engendered by the ouster of the corrupt Bakiev 
government.
    To its credit, the government of Kyrgyzstan requested an 
international investigation into the events and I certainly commend 
President Otunbaeva for that initiative. In response, the Independent 
International Commission of Inquiry into the Events in Southern 
Kyrgyzstan in June 2010 was formed. It released its report last month, 
and our first witness will be Kimmo Kiljunen, who chaired that 
commission.
    It is an excellent report, and I am deeply concerned by its 
conclusions. Especially alarming is the commission's judgment that the 
systematic nature of some acts committed last June by ethnic Kyrgyz 
against ethnic Uzbeks--including patterns of murder, rape, and brutal 
ethnic persecution--could qualify as crimes against humanity. It 
remains to be seen whether they will found so in a court of law--and 
whether or which competent court might take the case. In any case, such 
a judgment, by such a credible commission of investigation, must be 
taken very seriously, and the Kyrgyz government must investigate these 
crimes seriously and hold those responsible to account.
    I also am disturbed that Kyrgyz security forces apparently were 
complicit in the attacks, not only by failing to respond adequately to 
stop the violence, but, according to the commission report, in some 
cases even distributing weapons to ethnic Kyrgyz or driving the armored 
personnel carriers which penetrated the defenses of ethnic Uzbek 
neighborhoods. Unfortunately, so far the Kyrgyz government has brought 
more cases against ethnic Uzbeks--who made up the majority of the 
victims--and there is credible evidence that torture was used to 
extract confessions from these ethnic Uzbeks. This also must be 
investigated--including the case of human rights defender Azimzhan 
Askarov, who has been sentenced to life in prison despite his credible 
claim that he was tortured.
    Just as disturbing is the ongoing serious human rights abuses 
against ethnic Uzbeks, including torture, arbitrary arrest and 
detention, and unfairly conducted trials--which is also covered in 
detail by the report. Because the police force is deeply involved in 
these abuses, and is almost entirely of Kyrgyz ethnicity, victims feel 
they have nowhere to turn. Ethnic Uzbek businessmen and migrant workers 
returning from Russia are particular targets for extortion. Even with 
the understandable reluctance of victims to report abuses, the Office 
of the United Nations High Commissioner for Human Rights (UNHCHR) has 
documented some 680 cases of arbitrary arrest for ransom since June 
2010, as well as 70 cases of torture in detention. Ongoing human rights 
violations must stop immediately, and those responsible brought to 
justice.
    President Otunbaeva has said many of the right things. While laying 
a wreath in Osh to commemorate the one-year anniversary of the 
violence, she called for inter-ethnic peace and urged that nationalism 
not be used for political purposes. She has pledged to purge the police 
forces, reform the judicial system, and fight organized crime. She told 
the OSCE recently that, ``In addition to the reconstruction of 
destroyed facilities, we also face a far more difficult task: to 
restore the lost trust between Uzbek and Kyrgyz communities in the 
south. It is not easy to achieve trust after such a complex conflict. 
The level of nationalism and intolerance is very high. In the 
government's comments on the Commission's report: we openly admit the 
existence of serious problems in the field of human rights in the post-
conflict period; we agree with many criticisms of the commission in 
this field; we are ready to change the situation and we need support in 
implementing commission's recommendations.''
    I sincerely hope that President Otunbaeva will be able to carry out 
this policy, and that whoever replaces her after the election this 
fall--she is not eligible to run--will continue on this path. Her 
actions show significant commitment to this path. In any case it is 
clear that many people in Kyrgyz politics have no interest in such a 
path. Nationalist rhetoric is on the rise. Even high-level government 
officials now routinely refer to ethnic Uzbek citizens of Kyrgyzstan as 
the ``Uzbek Diaspora,'' as if they were immigrants from another 
country, which was responsible for them. In the past several weeks, the 
Kyrgyz parliament has passed several unhelpful measures, including 
banning Mr. Kiljunen from entering the country. This has sent a 
chilling message to other international NGOs working in the country. A 
Kyrgyz parliamentary commission wrote its own report on the June 2010 
violence, and in contradiction to the international report, concluded 
that ethnic Uzbek leaders and followers of former President Bakiev were 
responsible for the violence. Parliament also voted unanimously to ban 
the independent news website Fergananews.com, because it offered 
accounts different from parliament's anti-Uzbek narrative.
    I look forward to learning from our witnesses their view of the 
situation, and what they believe the Kyrgyz government should do to 
address it.

Prepared Statement of Hon. Benjamin L. Cardin, Co-Chairman, Commission 
                 on Security and Cooperation in Europe

    I welcome this hearing, one year after ethnic violence devastated 
areas of southern Kyrgyzstan. Let me begin, however, by welcoming an 
old friend: Kimmo Kiljunen, whom many of us know from his work in the 
OSCE Parliamentary Assembly. I am pleased to see that Kimmo has 
continued doing important work in a non-legislative capacity.
    In fact, I think he has done very important work in Kyrgyzstan by 
heading the international investigation into the tragic events of June 
2010, which stunned the country and shocked the world. The ethnic 
violence took place against a backdrop of weak government institutions, 
endemic problems with the police and judiciary, and growing ethnic 
nationalism. It erupted in a climate of corruption, and in a place that 
the United Nations has identified as a leading drug trafficking center 
in Central Asia. In the local power vacuum left following the overthrow 
of former President Bakiev and his supporters, I understand that 
racketeering was thriving and had taken on an ethnic component, as many 
businessmen vulnerable to extortion were ethnic Uzbek. And while many 
successful businesses were owned by Uzbeks, they were underrepresented 
in political life.
    So while the violence had an ethnic face, it also appears to have 
been fed by perceived economic disparities. I believe that economic 
development and fighting corruption must be a component of any 
reconstruction and reconciliation program. I am concerned that the 
process of compensating victims for property damage is too slow and 
bureaucratic. Bribes reportedly are needed to compete the complicated 
application process. As a result, many young people are leaving the 
region in search of work elsewhere, particularly in Russia. Few ethnic 
Uzbek businesses have reopened, or reportedly reopened under ethnic 
Kyrgyz ownership, leading to concerns about ``raiding'' or pressure on 
minority business owners to sell for a token price.
    International assistance has in some cases become a source of 
ethnic tension as well. Even with good intentions, aid has not always 
reached those for whom it was intended. For example, a new high-rise 
apartment building funded by international aid money was intended to 
house victims of the violence. Yet, while more than three-fourths of 
the victims were ethnic-Uzbeks, I don't believe any ethnic-Uzbeks 
received apartments in the new building. Although I understand that 
this was partly because most preferred to remain in traditional single 
family houses, it is illustrative of how divisive even an aid program 
can be.
    And property distribution likely will be another stress point. 
Riots over land disputes in 1990 during the breakup of the Soviet Union 
left over 300 people dead. A long-stalled land distribution project in 
Osh has been restarted, opening the door to fresh quarrels.
    Obviously, this is a very complicated problem, with many angles and 
competing perspectives. Kimmo Kiljunen's report is exhaustive, 
comprehensive and fair. Given the passions that still surround the 
violence and the possibility of its recurrence, that is a major 
achievement. I very much look forward to hearing from him and our other 
witnesses about the results of the international investigation and the 
recommendations for addressing the current situation and promoting 
ethnic reconciliation.

                    Biography of Dr. Kimmo Kiljunen

Date of birth: 13.06.1951, Finland
Nationality: Finnish
Marital status: four children, four grand-children

Degrees

    <bullet>  M.A. (Social Sciences) Helsinki University 1973
    <bullet>  M.Phil. (Development Studies) Sussex University, England 
1977
    <bullet>  D.Phil. (Development Studies) Sussex University, England 
1985
    <bullet>  Adjunct Professor (Development Studies) in Helsinki 
University and Joensuu University 1986

Languages

    <bullet>  Finnish
    <bullet>  English
    <bullet>  Russian
    <bullet>  Swedish
    <bullet>  French (modest)

Work experience in Finland

    <bullet>  Research Assistant, Finnish Institute of International 
Affairs, summer 1971
    <bullet>  Study Programme Assistant, Institute of Development 
Studies, Helsinki University, 1972-73
    <bullet>  Liaison Officer, Finnish UN Association, 1974-75
    <bullet>  Researcher, Labour Institute for Economic Research, 
Helsinki, 1979-81
    <bullet>  Research Fellow, Academy of Finland, 1981-85
    <bullet>  City Counsellor, Vantaa, 1985-
    <bullet>  Director, Institute of Development Studies, Helsinki 
University, 1986-95
    <bullet>  Member of Parliament, Finland, 1995-2011

International work experience

    <bullet>  Research student, Scandinavian Institute of African 
Studies, Uppsala, summer 1973
    <bullet>  British Council Fellowship, Institute of Development 
Studies Sussex University, Brighton 1975-78
    <bullet>  Secretary General, Kampuchea Inquiry Commission, 1980-82
    <bullet>  Secretary General, International Peace Bureau and 
personal assistant to Nobel Laureate Sean MacBride, Geneva, 1984-85
    <bullet>  Consultant, UNICEF, Kenya Country Office, Nairobi, 1989-
91
    <bullet>  Transition Policy Coordinator, UNDP, New York, 1993-94
    <bullet>  Member, UNU/WIDER's Academic Advisory Council, 1993-96
    <bullet>  Member of EU Constitutional Convention, 2002-03
    <bullet>  Conciliator, Court of Conciliation and Arbitration of the 
OSCE, 2007-
    <bullet>  Chair, Kyrgyzstan Inquiry Commission, 2010-11

Parliamentary functions

    <bullet>  Member, Foreign Affairs Committee, 1996-2011
    <bullet>  Member, Future Committee, 1995-99
    <bullet>  Vice-chair, Grand Committee (European Affairs), 1999-2007
    <bullet>  Member, Defence Committee, 1999-2003
    <bullet>  Chair, WTO sub-committee, 2000-07
    <bullet>  Member, Constitutional Law Committee, 2007-09
    <bullet>  Chair, TUTKAS, Parliamentary Society on Academia, 2007-11

International parliamentary functions

    <bullet>  Parliamentarians for Global Action, International Council 
member, 1995-99
    <bullet>  Nordic Council, member 1995-2001
    <bullet>  Arctic Council, Parliamentary Standing committee member, 
1999-03
    <bullet>  Nordic Council Working Group on Civic Crisis Management, 
chair, 2001
    <bullet>  WTO Parliamentary Conference, Steering Committee member, 
2001-11
    <bullet>  Parliamentary Network on World Bank, vice-chair, 2001-07
    <bullet>  Baltic Sea Parliamentary Conference, chair of the Finnish 
Group, 2003-05
    <bullet>  Euro-Mediterranean Parliamentary Assembly, member, 2004-
2007
    <bullet>  Inter-Parliamentary Union, Finnish Group, member, 2007-11

OSCE Parliamentary Assembly activities

    <bullet>  Vice-chair, OSCE PA Finnish Delegation, 1995-2007
    <bullet>  Vice-chair, Political and Security Committee, 1996-99
    <bullet>  Chair, Political and Security Committee, 1999-2000
    <bullet>  Member, Working Group on Belarus, 1998-2003
    <bullet>  Chair, Working Group on Moldova, 2000-06
    <bullet>  Vice-president, OSCE PA, 2001-04 and 2007-10
    <bullet>  Special Representative for Central Asia, 2007-11

Election observation
    <bullet>  Special Coordinator (Head) of OSCE Election Observation 
Mission in
        Moldova 2001 and 2005
        Belarus 2001
        Macedonia 2002
        Kyrgyzstan Feb. 2005, July 2005 and 2007
        Tajikistan 2006
    <bullet>  Special Envoy on Elections of OSCE CiO Finland, 2008
    <bullet>  Special Representative on Election Observation of OSCE 
CiO Greece, 2009
    <bullet>  Special Representative on Election Observation of OSCE 
CiO Kazakhstan, 2010
    <bullet>  Special Representative on Election Observation of OSCE 
CiO Lithuania, 2011

Activities on international relations

    <bullet>  Member, Finnish UN-delegation, 34th UN General Assembly, 
1979
    <bullet>  Member, State Advisory Board on Relations with Developing 
Countries, 1981-85 and 1995-99
        Expert Member, 1989-92
    <bullet>  President, Finnish UN Association, 1987-91
    <bullet>  Member, State Committee on Environment and Development, 
1987-89
    <bullet>  Chair, Isolate South Africa Campaign in Finland, 1988-89
    <bullet>  Member, State Preparatory Committee for UNCED, 1990-92
    <bullet>  Vice chair, Finnish Red Cross, International Committee, 
1992-93
    <bullet>  Expert member, State Committee for Sustainable 
Development 1993-95
    <bullet>  Chair, Finland-South Africa Association, 1995-97
    <bullet>  Chair, STETE, Finnish Committee for European Security, 
1995-2003
    <bullet>  Chair, SDP Working Group on Migration Policy, 1997-99
    <bullet>  Chair, SDP Working Group on Nearby regions, 1999-2005
    <bullet>  Vice chair, Carelia Foundation Administrative Board 2000-
02
    <bullet>  Chair, Sports Development Aid, 2001-05
    <bullet>  Chair, SDP Working Group on European Union, 2005-

Honours

    <bullet>  President Urho Kekkonen Foundation, Literature Award 1992
    <bullet>  Liputusyhdistys Siniristi ry, ``Vuoden liputtaja'' Award 
2005

Business sector activities
    <bullet>  Delegation Member, Heureka, Finnish Science Center, 1991-
93, 1998-2000 and Vice-chair, Governing Council, Heureka, 2009-
    <bullet>  Member, Elanto Representative Council, 1991-2005
    <bullet>  Vice chair of HPY Body of the Representatives, 1996-99
    <bullet>  Vice chair of HPY Holding Ltd Supervisory Board, 1999-
2000
    <bullet>  Member of Fortum Supervisory Board, 2007-
    <bullet>  Member, HOK-Elanto Representative Council, 2005-

Books published abroad 

    <bullet>  Namibia-the Last Colony, (ed. with R.H.Green and M-
L.Kiljunen), Longman, London 1981
    <bullet>  Kampuchea, Decade of the Genocide, (ed.), Z Press, London 
1984
    <bullet>  Region-to-Region Cooperation between Developed and 
Developing Countries, (ed.), Avebury, Aldershot 1990
    <bullet>  Finland and the New International Division of Labour, 
Macmillan, London 1992
    <bullet>  Statele Lumii Si Drapelele Nationale, (World States and 
National Flags), Monitorul Oficial, Bucharest 2001
    <bullet>  The European Constitution in the Making, CEPS, Brussels, 
2004
    <bullet>  Riigid ja Lipud, (States and Flags), A ja O Taskutematik, 
Eesti Entsuklopeediakirjastus, Tallinna 2005
    <bullet>  Gosudarstva i Flagi, (States and Flags), Rosspen, Moscow 
2008

Books published in Finland

    <bullet>  Rotusorron kahleissa (In the Chains of Racial 
Discrimination), (ed.), Joensuu 1975
    <bullet>  Alikehityksen maailma (The Underdeveloped World, 
textbook), Tammi, Helsinki 1976
    <bullet>  80-luvun aluepolitiikan perusteet (Premises for Regional 
Policy in 1980's), TTT, Helsinki 1979
    <bullet>  Industrialisation in Developing Countries and Trade-
Related Constraints in Finland, Labour Institute for Economic Research, 
Helsinki 1985
    <bullet>  Kolme maailmaa (Three Worlds, textbook), University 
Press, Helsinki 1989
    <bullet>  Musta-valkoinen Etela-Afrikka (Black and White South 
Africa), (ed. with S.Lehtonen), Kirjayhtyma, Helsinki 1990
    <bullet>  Sina ja maailman koyhat (You and World Poverty), WSOY 
1991
    <bullet>  Suomalaisena YK:ssa (The Finns in the UN), (ed.), 
Gummerus, Helsinki 1994
    <bullet>  Maailman maat ja liput (World States and Flags), Otava 
MMM, Helsinki 1995, revised 2000
    <bullet>  Kansanedustajana Suomessa (An MP in Finland), WSOY, 
Helsinki 1998
    <bullet>  Maapallohaaste (Global Challenge), (with S. Hassi and S. 
Pietikainen), Otava 1999
    <bullet>  Minun mielestani Tarja Halonen (My opinion Tarja 
Halonen), (ed.), Helsinki 2000
    <bullet>  Valtiot ja liput (States and Flags), Otava MMM, Helsinki 
2002
    <bullet>  EU:n perustuslaki--Suomalaisena konventissa, (The 
Constitution of the EU, A Finn in the Convention) Ministry of Foreign 
Affairs, Europe-information, Helsinki 2004, revised 2005
    <bullet>  A Constitution for the European union, Parliament of 
Finland, Helsinki 2005
    <bullet>  Globalisaatio ja demokratian itsepuolustus (Globalisation 
and Self-defence of Democracy), Helsinki 2008
    <bullet>  Satakolmetoista viikkoa--politiikkaa silta puolelta (113 
Weeks, Politics from that Side), Vantaa 2009

              Prepared Statement of Amb. Muktar Djumaliev

    Mr. Chairman,
    I thank you very much for convening us this meeting today.
    The interethnic conflicts in 1990th and repeated in 2010 in 
Kyrgyzstan is most painful facts in our history.
    Kyrgyzstan passed through most difficult challenges on its way for 
the democratic development. We faced many obstacles, corruption, 
authoritarian governance, repressions by clan regime, and still are in 
a very fragile situation. Interethnic conflict provoked in the country 
between two friendly countries became inhuman tool to prevent new 
changes and reforms.
    Authoritarian methods of government and deep corruption were 
accompanied by a sharp deterioration in living conditions, and 
naturally led to the April People's Revolution and the fall of the 
anti-people regime.
    2010 was the year for Kyrgyzstan's radical democratic change, and 
at the same time a serious challenge and test of the strength of 
statehood and unity of the nation.
    Our own experience shows that without checks and balances of 
powers, there is a risk of a return to authoritarian regime. Therefore, 
for the first time in Central Asia, we have embarked on the 
construction of a parliamentary republic.
    In June 2010 we held a referendum on adoption of a new constitution 
and election of the head of state. In October, managed to have an open 
and transparent parliamentary election. In December, parliament formed 
a coalition government.
    And this year we are going to establish a precedent of democratic 
transfer of power of the President.
    These efforts faced with resistance from the revenge-seekers and 
organized crime, which become a real force in society for the during 
the period of the ousted regime.
    It is with their filing in June 2010 that representatives of the 
Kyrgyz and Uzbek ethnic groups, who lived for centuries peacefully 
alongside each other, were ``dragged'' into the violent clashes.
    Unfortunately, during these tragic events hundreds of our citizens 
were killed.
    In difficult conditions, with the joint efforts of citizens of 
Kyrgyzstan and support of international organizations and governments 
of several countries, Kyrgyzstan has managed to prevent a humanitarian 
catastrophe in the south.
    Mr. Chairman, for Kyrgyzstan it was the first time experiencing to 
conduct an international investigation. Such precedent never happened 
in the Post soviet countries.
    The Government of the Kyrgyz Republic recognises the importance and 
value of the work done by the IIC and thanks its reputable members for 
the efforts and contribution devoted to investigate the tragic events 
that occurred in Kyrgyzstan.
    The Government agrees with number of the conclusions and criticisms 
contained in the IIC Report. It does not absolve the responsibility for 
what happened. The Provisional Government honestly and openly 
acknowledged its guilt and responsibility in its address on June 16, 
2010 to the people of Kyrgyzstan and the International Community.
    Kyrgyzstan's Government is taking and will continue to take all 
necessary measures to eliminate or minimize the consequences of the 
tragic conflict and to prevent the repetition of similar events in the 
future. Many of the recommendations contained in the IIC Report have 
had being implemented by the Government from the day the conflict was 
localized.
    Kyrgyzstan's Government will establish the Special Commission to 
implement and monitor the implementation of the recommendations of the 
IIC Report and other reports and researches related to the tragic 
events of 2010 in the Southern Kyrgyzstan.
    However, the Kyrgyz Government believes that the IIC Report does 
not contain a sufficient evidence to conclude that there have been made 
certain acts that can be qualified as the crime against humanity during 
the June events in the city of Osh.
    Kyrgyzstan's Government considers as unacceptable the visible 
tendency in the IIC report to take into account to a greater extent the 
crimes committed only by the members of one ethnic group while ignoring 
the deaths and casualties suffered by the same group and depicting 
another group as the single suffered and defenseless party.
    It is also important to take into account the fact that during the 
conflict there were no sufficient political, financial, and law-
enforcement resources at the disposal of the Provisional Government to 
counter the large-scaled provocations of interethnic clashes. However, 
even under such conditions, the People and the authorities of 
Kyrgyzstan independently and without outside intervention managed to 
stop the violence and localize the conflict within a few days.
    Kyrgyzstan's Government took great efforts to reconcile the parties 
of the conflict, to overcome the consequences of the conflict and it 
still proceeds with it. However, there is still tangible tension and a 
number of unresolved socio-economic problems in the conflict zone. In 
the conditions of the started presidential campaign, some of the ICC 
conclusions can be used by the opponents of the democratic reforms to 
destabilize the situation and strengthen the position of the internal 
revanchist forces.
    Kyrgyzstan's Government hopes that necessary conclusions from the 
events of 2010 will be made by the international community as well, 
including the organizations that pursue the aim of preventing, 
neutralizing and eliminating consequences of such conflicts.
    We have also started work on developing and implementing the 
concept of ethnic development and consolidation of the people of 
Kyrgyzstan.
    We are doing everything possible to punish all those responsible. 
All trials are held in conditions of unprecedented openness.
    But the situation remains difficult, in particular, with concerns 
about the emotional nature of the trials of resonant crimes.
    The new government declared its uncompromising war against 
criminals and is determined to stop the merging criminal gangs with the 
authorities.
    The government has taken urgent measures to normalize the 
functioning of law enforcement and security agencies. The Defense 
Council was established as a coordinating and supervisory body.
    In order to effectively combat drug trafficking, the drug control 
agency abolished by the previous government has been restored.
    We intend to do everything possible to create conditions to 
strengthen the rule of law, a culture of political dialogue, and an 
open and equitable society.
    Within a short period of time we have achieved qualitative 
improvements. Independent media is functioning. The opposition has not 
only ample opportunity to criticize the head of state and the ruling 
parliamentary coalition, but actually participates in governing the 
country, by leading three key parliamentary committees--on budget and 
finance, law enforcement and the rule of law, human rights and public 
organizations.
    There are Supervisory Boards established in the ministries to 
ensure transparency and accountability of government to the people.
    We are reforming the judicial system to make it truly independent 
and introduced a mechanism to ensure quality selection of judges 
through the Council, whose composition is formed with the participation 
of opposition representatives.
    Mr. Chairman, responding to the question addressed on Kyrgyzstan's 
Parliament decision with regards to the Killjunen's report and PNG I 
would mention, after the report was released, the situation in the 
country became even more tense. The people of Kyrgyzstan were expecting 
that the report will be objective, balanced and contribute for the 
reconciliation and we still believe on it.
    In such a situation, while Parliament agrees with the Comments of 
the Government, it decided to pass an order to take a decision on Mr. 
Kimmo Kiljunen entry to the Kyrgyz Republic. In this regard, the 
specialised agencies will review and decide on this matter.
    At the same time, the President of the Kyrgyz Republic called 
Parliament of the Kyrgyz Republic to reconsider it decision. The 
President called the parliament to pay more attention on adopting and 
implementations of the recommendation. Some of the parliamentarians 
even invited Mr. Kimmo Kiljunen to the Parliament in order to organise 
him a public hearings.
    Today, is a most important to consolidate our efforts in order to 
avoid repetition of the conflicts in the future and we count on the 
support of all the friends and partners.
    Thank you, Mr. Chairman.

    Ambassador Muktar Djumaliev was born on June 22, 1972. Graduated 
from the National University of the Kyrgyz Republic in 1994, economic 
faculty; 1997 Law faculty.
    2001-2002 study for the Master of International Law and Economics 
degree in the World Trade Institute, Bern University.
    He started his work at the State Committee on Economy of the Kyrgyz 
Republic as a senior expert on External Economic Relations.
    1996--Advisor of the Minister of Finance of the Kyrgyz Republic.
    1997--Head of the Department on External Economic Relations and 
then he was transferred to the National Bank of the Kyrgyz Republic as 
a Deputy Director on Investments and Coordination of Technical 
Assistance.
    1998--the First Secretary of the Permanent Mission of the Kyrgyz 
Republic to the United Nations Office and other international 
organisations in Geneva.
    2003--Office of the President of the Kyrgyz Republic, Economic 
Policy Department
    2003--First Deputy of Minister of Foreign Trade and Industry of the 
Kyrgyz Republic.
    June 23, 2004--Ambassador, Permanent Representative of the Kyrgyz 
Republic to the United Nations Office and other international 
organisations in Geneva.
    In August 20, 2004 Mr. Muktar Djumaliev has presented the 
Credentials as Ambassador, Permanent Representative of the Kyrgyz 
Republic to the United Nations Office and other international 
organisations in Geneva, to H.E. Sergei Ordzhonikidze, Director General 
of the United Nations Office in Geneva.
    In September 23, 2004 Ambassador Muktar Djumaliev has presented the 
Credentials as Permanent Representative of the Kyrgyz Republic to the 
World Trade Organization.
    In November 23, 2004 Ambassador Djumaliev presented his credentials 
as Ambassador Extraordinary and Plenipotentiary of the Kyrgyz Republic 
to the Swiss Confederation.
    In June 2010 appointed as the First deputy chief of staff of the 
Administration of the President of the Kyrgyz Republic.
    Since December 2010 appointed for a position of Ambassador of the 
Kyrgyz Republic to USA and in April 2011 appointed as Ambassador of the 
Kyrgyz Republic to Canada with residence in Washington.
    M. Djumaliev has a diplomatic rank of Ambassador Extraordinary and 
Plenipotentiary.

             Prepared Statement of Dr. Martha Brill Olcott

    Thank you for the opportunity to testify before you today.
    I would like to focus my comments on the reaction that the report 
of the Independent International Commission of Inquiry evoked in 
Kyrgyzstan, and what implications this might have for future political, 
social, and ethnic developments in Kyrgyzstan.
    Unlike the others who are testifying here today I am not an expert 
on the events of last June, nor have I spent time in southern 
Kyrgyzstan since the ouster of the Bakiyev government. I have, however, 
made six trips to Kyrgyzstan over the past 18 months, always in the 
north, and have been travelling to Kyrgyzstan regularly for the past 21 
years, and have travelled extensively throughout the country on 
numerous occasions.
    I happened to be in Kyrgyzstan shortly after the report was 
published and had the opportunity to discuss its findings with people 
at various levels of society and government. And so I would like to 
spend the time allotted to me focusing on why there was so much 
distress over the report in Kyrgyzstan, and especially in that 
country's capital, and I will develop these points further in my 
written testimony that I am submitting for the record.
    The stellar team that prepared the report deserves to be commended 
for applying extraordinary effort to an incredibly difficult endeavor 
and for coming up with a detailed account of the terrible acts that 
destroyed so many lives, left countless thousands more physically and 
or emotionally scarred, and destroyed the property and dreams of tens 
of thousands more. The human tragedies that the report of the 
Independent Commission describes in such detail are particularly 
disturbing to all of us that have deep and longstanding ties to the 
peoples of the Kyrgyz Republic.
    The end product will serve as a lasting indictment of what went 
wrong in the southern part of Kyrgyzstan last June. It details the 
provisional government in this part of the country where Bakiyev's 
support base had been so strong during its first two months in power, 
and provides some background on the history of tension between the 
Kyrgyz Republic's two largest ethnic communities.
    Its recommendations reflect much thought and discussion, and have 
provided the President, the government, and the parliament a great deal 
of policy recommendations to think about, a number of which are already 
under serious discussion.
    This was the first major international investigation led by 
recognized experts from the Euro-Atlantic community ever held in the 
region. The government of the Kyrgyz Republic deserves great credit for 
creating the conditions necessary for the inquiry to go forward and for 
considering the recommendations of the commission.
    The one criticism I would make of the report is that its findings 
and recommendations were not presented in a way designed to make them 
palatable for the Kyrgyz polity, who compare it to home-grown efforts 
to investigate what occurred. This increases the difficulty of 
implementation of the most important recommendations of the Independent 
International Commission in the area of accountability and the 
protection of human rights. This is particularly true now, as 
Kyrgyzstan is beginning a presidential campaign.
    It is important for those of us in the Euro-Atlantic community 
looking at developments in Kyrgyzstan with the goal of defending a 
human rights agenda to try and understand why the Independent 
International Commission's report created such a furor in Kyrgyzstan as 
we evaluate how to be effective in advancing our agenda. For if we do 
not, we risk inadvertently increasing the risk of ethnic conflict, and 
could put the whole democratic experiment in Kyrgyzstan at risk as 
well.
    It would be a mistake to equate equal protection of all citizens 
before the law, which is unquestionably a necessity for any country to 
defend and a cornerstone of democracy, with the idea that all ethnic 
communities living within a country, even if they have lived there for 
centuries, must have the same constitutional status.
    One of the sad things about last June's events is that they mark 
the end of the idealistic dream that the Kyrgyz Republic could emerge 
as a multi-ethnic democracy in which all of the country's citizens 
believe that they have an equal stake in the nation's future regardless 
of the languages that they speak. It may well be that this was always 
impossible in the context of the break-up of the U.S.S.R. and the 
assumptions of ethnicity and nationality which were part of the legacy 
of the Soviet Union, but until last May, even before the June 2010 
events, it was possible to aspire to such a goal.
    But now the two decade old inter-ethnic status quo in southern 
Kyrgyzstan has been disrupted, and I don't believe that it can be 
reconstituted. Even if it were to be the consensus of all of those 
living in southern Kyrgyzstan that it should, it is hard for me to 
believe that the Kyrgyz body politic living in other parts of the 
country would be supportive of this.
    The ethnic Kyrgyz population, and this includes the most 
``westernized'' and ``secularized'' elements in the country, want to 
consolidate a Kyrgyz nation, which for the overwhelming majority 
includes all the ethnic minorities who live within the territory of the 
Kyrgyz Republic. But there is the expectation that all citizens of the 
Kyrgyz Republic will learn and use the Kyrgyz language in official 
life, and that they will know the history of the Kyrgyz people, as well 
as that of the territory that the Kyrgyz have long lived on.
    This belief is why there has been such a loud outcry against some 
of the recommendations of the Independent Commission. While actions 
such as the vote in parliament to declare Kimmo Kiljunen persona non 
grata have a large element of political grandstanding about them, at 
the same time they speak to a deep feeling of hurt on the part of many 
ethnic Kyrgyz living in Kyrgyzstan.
    This said, I think most Kyrgyz citizens would not take exception to 
the vast majority of the recommendations of the report, especially 
those that deal with public safety and security, and most would 
probably even support the majority of recommendations on 
accountability, on criminal and disciplinary accountability, and on 
human rights protection and the right to a fair trial. Although, I 
suspect that on these questions a lot of Kyrgyz citizens would ask with 
some degree of quasi-fatalism how the international community expects 
that an already flawed security structure and legal system would be 
able to rapidly right itself even if it was well-intentioned.
    But I also believe that most Kyrgyz ordinary citizens and political 
figures alike find it very difficult to accept the idea that ethnic 
Kyrgyz may have been more morally culpable than ethnic Uzbeks in the 
events of June, or that the Kyrgyz dominated security services have 
disproportionately applied the force of the law against ethnic Uzbeks. 
In saying this I am not denying the veracity of any of the findings of 
the commission, which in great detail argue that this was in fact the 
case. But accepting such findings as truths is something that many 
people living in Kyrgyzstan find quite difficult, and those that do 
accept them try and take comfort in the fact that the violence lasted 
only a few days, and didn't turn into a civil war, rather than on 
focusing on the burdens of moral culpability.
    This takes me to the most controversial recommendations of the 
commission, from the point of view of the Kyrgyz polity, and here I am 
including other ethnic minorities along with the Kyrgyz, that is the 
renaming of the country, and of the granting of a special and 
constitutionally guaranteed status to the Uzbek language. From my point 
of view, and I say this as an international expert on the region, the 
commission overstepped the bounds of its mandate, and certainly of good 
judgment when it made the former recommendation in particular. By 
asking the Kyrgyz to rename their country the commission made it easier 
for Kyrgyz politicians to criticize the report, and made the life and 
death issues at the core of the Independent Commission's findings--that 
those responsible for committing ``crimes against humanity'' must be 
punished for their actions, and that the government of the Kyrgyz 
republic is responsible for the equal protection of the human rights of 
all citizens of Kyrgyzstan.
    One of the challenges for the international community in dealing 
with the Kyrgyz polity, as well as the next Kyrgyz government, is that 
the country is still going through a national trauma. This is true of 
the country as a whole, while obviously in the south the trauma is more 
immediate and potentially more deadly for the well-being of those 
living in this part of Kyrgyzstan and for the security of the Central 
Asian region.
    But unfortunately, and certainly inadvertently, the report of the 
commission and especially its recommendations made the trauma of 
suffered by Kyrgyz citizens of Uzbek ethnicity seem at odds with the 
greater national trauma, and a threat to it. This is one reason why 
there was such an emotional and negative response by some, generally 
outside of the government, to the report.
    Let me explain. Most Kyrgyz feel like they are political victims, 
that they were victimized by the Akayev regime, at least in its later 
years, and that they were even more abused by the Bakiyev regime. How 
people describe the form of this abuse varies, from political, in the 
case of journalists and scholars, to economic, in the case of 
businessmen who felt victimized by rapacious ruling families or 
insufficiently protected against criminal interests and their growing 
economic tentacles. And ordinary Kyrgyz just felt economically quashed 
by the economic insignificance of their country which, if not losing 
ground, was not ``catching up'' and where everything-especially food 
and utilities-seemed to cost more and more. This has made 
``Kyrgyzness,'' the idea of national consolidation, of taking pride 
that one's homeland is now a sovereign state, seem more important to 
many than ever before. After so much political turmoil-effectively six 
straight years since Akayev's ouster--that is one of the few things 
that many people have left.
    But even more importantly, in the aftermath of all the traumas of 
the past fifteen months, people want to simply move on with their 
lives, to live quietly and if possible to improve their lot.
    This does not directly address the continuing tense situation in 
the south, although I think that right now there do not seem to be any 
actors interested in pushing it to the tipping point. I think that this 
is true both for the population in Kyrgyzstan and those living across 
the border in Uzbekistan. And I personally give no credence to rumors 
that the local Uzbek population on either side of the border is 
pressing for ``Uzbek autonomy'' in the Kyrgyz republic.
    In this regard the very existence of the Independent Commission 
report is a good thing for this is a good time to press the various 
government authorities in the Kyrgyz republic to work harder to 
introduce measures that are designed to increase ethnic tolerance.
    But these measures are certain to fall short of those things asked 
for by the commission. Kyrgyzstan is still in a period of transition 
and politicians competing for office will seek political gain wherever 
possible. Even in a relatively poor country like Kyrgyzstan the 
political prize of the presidency is worth contesting hard for, and I 
think that the international community should be prepared for the fact 
that Kyrgyzstan could move back toward a stronger presidential system. 
Even if it does not, the current parliament may not be able to fulfill 
its full term, leading to preterm parliamentary elections. But the 
international human rights community must keep the pressure on those in 
authority in the Kyrgyz republic to keep national extremist goals from 
coloring political debate. Fortunately, most of Kyrgyzstan's leading 
political figures in and out of government share want this as well.
    How should the Helsinki Commission respond to the report of the 
Independent International Commission? While defending human rights of 
the entire population regardless of ethnic origin, I do not believe 
that the Helsinki Commission should cross the line and become 
proscriptive about other aspects of nation-building, as the Independent 
Commission did.
    The lives of ethnic minorities everywhere were disrupted when the 
U.S.S.R. fell apart, and their situation is particularly sad when 
people living in communities where their ancestors have lived for 
generations now find themselves as minorities. The violence of June 
2010 is a tragedy, and the victims of violence or their survivors 
should be compensated, while those responsible should be held 
accountable. But it debases the loss of human life and the trauma of 
those who lived through these days to even indirectly equate them with 
providing constitutional guarantees for Uzbek language education or 
talk of the need to rebuild Soviet-era cultural institutions in 
southern Kyrgyzstan. This takes attention away from the real crimes 
that the report of the Independent International Commission 
underscored, the failure forces in the south to protect all of the 
country's citizens.
    It dilutes the power of the human rights message when outsiders 
seek to engage in that degree of nation building, even when they do so 
with the best of intensions. The political freedoms of all citizens in 
Kyrgyzstan should be defended equally; freedom of press, religion, and 
assembly evenly applied, and the government of Kyrgyzstan should 
continue to be pressed to ensure that legal safeguards are put in place 
to help guarantee that local security and judicial officials apply the 
law evenly regardless of the ethnicity of the accused, or are held 
accountable for their actions.
    But we cannot even the political playing field between ethnic 
Kyrgyz and the country's various ethnic minorities, and those 
international agencies or actors that seek to do it risk losing 
credibility with the Kyrgyz polity and with the Kyrgyz elite. The 
Kyrgyz language is going to dominate in Kyrgyzstan, and those who can't 
speak it will have a harder time in public life in the future. That is 
the pattern everywhere in the region and will be the case in 
Kyrgyzstan, as well. The ethnic Uzbeks who are citizens of Kyrgyzstan 
face a set of difficult choices in the coming years: adapt to changing 
socio-cultural realities in Kyrgyzstan or think about relocating. These 
choices are not of their making. Ethnic minorities everywhere in the 
region are learning ``state'' languages, i.e. the languages of the 
majority population. This should not be the focus of the international 
community. But all of the Kyrgyz republic's citizens should have the 
same rights basic human rights, enjoy the same legal protections and 
the have the right to participate in public life on equal terms. This 
should be the focus of the Helsinki Commission and of the international 
human rights community more generally. To take this more limited 
approach might make us more effective in trying to ensure that peace 
prevails in Kyrgyzstan's south. But there will be no guarantees.

    Martha Brill Olcott is a senior associate with the Russia and 
Eurasia Program at the Carnegie Endowment in Washington, D.C.
    Olcott specializes in the problems of transitions in Central Asia 
and the Caucasus as well as the security challenges in the Caspian 
region more generally. She has followed interethnic relations in Russia 
and the states of the former Soviet Union for more than 25 years and 
has traveled extensively in these countries and in South Asia. Her 
book, Central Asia's Second Chance, examines the economic and political 
development of this ethnically diverse and strategically vital region 
in the context of the changing security threats post 9/11.
    In addition to her work in Washington, Olcott codirects the 
Carnegie Moscow Center Project on Religion, Society, and Security in 
the former Soviet Union. She is professor emerita at Colgate 
University, having taught political science there from 1974 to 2002. 
Olcott served for five years as a director of the Central Asian 
American Enterprise Fund. Prior to her work at the Carnegie Endowment, 
Olcott served as a special consultant to former Secretary of State 
Lawrence Eagleburger.
    Soon after 9/11, she was selected by Washingtonian magazine for its 
list of ``71 People the President Should Listen To'' about the war on 
terrorism.

    Languages: Russian, French, Turkish

    Selected Publications: Central Asia's Second Chance (Carnegie 
Endowment, 2005); Kazakhstan: Unfulfilled Promise (Carnegie Endowment, 
2002); Preventing New Afghanistans: A Regional Strategy for 
Reconstruction (Carnegie Endowment Policy Brief 11, 2001) Getting It 
Wrong: Regional Cooperation and the Commonwealth of Independent States, 
with Anders Aslund and Sherman Garnett (Carnegie Endowment, 1999); 
Russia After Communism edited with Anders Aslund (Carnegie Endowment, 
1999).Areas of ExpertiseOlcott is an expert in Central Asia, Russia and 
Eurasia, the Caspian region, Kazakhstan, Uzbekistan, ethnicity, 
terrorism, oil and gas policy, natural resources, democracy, U.S.-
Russia relations, foreign and humanitarian aid, and 
Islam.EducationB.A., SUNY-Buffalo; M.A., Ph.D., University of Chicago

               Prepared Statement of Dr. Alisher Khamidov

Introduction

    Mr. Chairman, I want to thank you for inviting me here to testify 
about the ways to address ethnic tensions in my native country 
Kyrgyzstan.
    In early June 1990, when the initial ethnic clashes between the 
Kyrgyz and Uzbeks erupted in Soviet Kyrgyzstan, I was a 13 year-old boy 
in an Uzbek-speaking town just outside Osh. I saw crowds of furious 
young men, armed with sticks, stones, and incendiary weapons, attack 
each other. I also witnessed firsthand how Soviet troops rolled through 
the Osh streets and brutally suppressed the riots that claimed the 
lives of more than 200 people. Exactly twenty years later, when the 
violence between the Kyrgyz and Uzbeks broke out again, I was a scholar 
conducting research on ethnic relations in Osh. As the conflict 
unfolded with a lightning speed, I saw the same furious and unruly 
crowds of young men; but this time they were armed with firearms, 
automatic machine-guns, grenades, RPGs and even tanks. Unlike the first 
clash, no Soviet, Russian or any outside troops intervened to stop the 
rampaging crowds. As a result, more than 400 people died during the 
conflict that lasted several days.
    During those hot June days in 2010, I was among thousands of other 
desperate ethnic Uzbeks and Kyrgyz who were displaced by the conflict. 
I and my relatives fled to the Uzbek-Kyrgyz border near Osh. Uzbek 
border guards allowed about 100 thousand Uzbek refugees, mainly women 
and children, to cross the border. I was denied entry. Hunted by my own 
fellow citizens and unwanted by co-ethnics in Uzbekistan, I, like many 
Kyrgyz citizens, cherished hopes that Russia, Kazakhstan and other 
countries such as China would intervene to stop the violence. Such 
hopes were dashed when Kyrgyzstan was told to deal with the conflict on 
its own. Suddenly, a country where interests of many countries overlap, 
became no one's backyard.
    Now, when the dust of the conflict is settling down somewhat, we 
can make sense of what has happened. Some claim that the historical 
hatred between the two communities precipitated the violence. Others 
say that economic disparities triggered the conflict. Still others 
suggest that various extremist groups, local and foreign, had a hand in 
the violence. In this testimony, I do not deny the relevance of these 
views. But I would argue that understanding last year's violence in 
Kyrgyzstan requires us to have a more nuanced and holistic view of 
Kyrgyzstan's past and present. The violent regime change and bloody 
ethnic clashes in 2010 are symptoms of a set of broader and long-
standing challenges, or ``chronic ailments,'' that have afflicted 
Kyrgyzstan and its neighbors since independence. If these ailments are 
not treated adequately, turmoil will continue in Kyrgyzstan.
    So what are these ailments? Twenty years ago, when Kyrgyzstan 
gained independence, its leaders and citizens, like their counterparts 
in other former Soviet republics, grappled with four key transition 
challenges that fall under the general rubrics of politics, economy, 
society and foreign policy. In the political realm, Kyrgyz leaders 
debated whether they should divide powers more evenly among themselves 
or preserve Soviet-era institutions of rule. In the economic sphere, 
leaders were divided into those who promoted liberal market reforms and 
those who stood for preserving Soviet-era social benefits system. The 
third challenge was related to the identity of the new state--should 
Kyrgyz citizens build a multi-ethnic republic or a state ruled by the 
titular ethnic group (like its neighbors such as Uzbekistan and 
Turkmenistan)? The final challenge was related to the country's foreign 
policy--should Kyrgyzstan pursue an independent multi-vector policy or 
stick even more closely to Moscow?
    After two decades of wavering between these alternatives, two 
revolutions and two bloody inter-ethnic conflicts--the symptoms of 
unresolved transition ailments--Kyrgyz citizens are grappling with the 
same challenges again. It is as if the country has come full circle to 
start at square one in 2010. In this testimony, I seek to answer two 
questions. Why did this happen? Why there has been no progress? And 
second, where might things end?
    Before proceeding to these questions, it is important to remind us 
why we should care about this small mountainous country of five million 
people, the size of South Dakota, located in the remote part of the 
world. Kyrgyzstan is important because of several factors. The first 
factor is its geographic location: the country borders China, 
Kazakhstan, Uzbekistan and Tajikistan (the last two have borders with 
Afghanistan). Kyrgyzstan is also a member of the World Trade 
Organization (WTO), Shanghai Cooperation Organization, and numerous 
other regional inter-state structures. Second, the country is important 
because of geopolitical considerations. It is the only country in the 
world that hosts an American and Russian military bases. The U.S.-
operated Manas Transit Center plays a key role in the so-called 
Northern Distribution Network. Third, there is an ideological 
consideration. Kyrgyzstan was briefly the darling of the West, serving 
as a model of democratic development for other countries in the region. 
Following the establishment of a parliamentary system, President Barack 
Obama's administration has given an indication that Kyrgyzstan can 
serve as a model for some Middle Eastern states as they chart their 
post-authoritarian courses. For Russia and other Commonwealth 
republics, especially Uzbekistan and Kazakhstan, Kyrgyzstan and chronic 
instability is a model of what not to follow.

Explaining Kyrgyzstan's tumultuous path since independence

    So what explains Kyrgyzstan's tumultuous trajectory since 
independence? Various answers are given. Some observers emphasize the 
role of history. They claim that the country's nomadic roots and 
illiberal Soviet past have made the country prone to authoritarianism 
and political volatility. Other observers cite economic factors, 
suggesting that a low supply of natural resources has prevented 
Kyrgyzstan to turn into an economically prosperous and politically 
stable country. There are also claims that Kyrgyzstan is located in a 
``bad authoritarian neighborhood''--a condition that is not conducive 
to developing a democracy.
    All of these explanations are relevant and they may not exclude 
each other. But today, I will emphasize the role of leadership or lack 
of it as the major source of Kyrgyzstan's troubles. The major flaw of 
the Kyrgyz leaders was that they failed to find lasting solutions or 
effective treatments for the four key challenges, or chronic ailments, 
outlined above. To be more precise, Kyrgyz leaders have continuously 
undermined stability by engaging in systematic alteration of political 
rules whenever such rules did not suit their immediate political 
preferences. More importantly, Kyrgyz leaders lacked a realization of 
their historic roles as the founding fathers of the nation and the 
responsibility that flows from such realization.
    Let me describe in detail the way in which Kyrgyz leaders failed to 
respond to the key transitional challenges. I will start with 
Kyrgyzstan's first president Askar Akaev who ruled the country from 
1990 to 2005. Akaev's initial responses to the challenges of early 
independence established him as a genuine democratic leader in the 
West. He liberalized the political space, creating a system in which 
power was shared more or less evenly between the President, Parliament, 
and regional authorities through the single-mandate district electoral 
system. Akaev also liberalized the economy, ushering in massive 
privatization of state enterprises. In foreign policy, he pursued a 
balanced and cautious policy toward large powers and neighbors. Eager 
to quell ethnic tensions, especially after the June 1990 clash in Osh, 
Akaev promoted a civic idea of Kyrgyzstan as a ``common home'' for all 
ethnic groups. This policy, while widely unpopular with the ethnic 
Kyrgyz majority, sought to give ethnic minority groups a sense of 
ownership and the Akaev administration much needed votes during 
elections.
    Political and economic liberalization under Akaev had lasting 
consequences on the country's future trajectory. The economic 
liberalization policy offered new opportunities for Kyrgyz residents to 
gain capital outside state institutions and led to the formation of new 
wealthy class. Seeking to gain seats in Parliament, affluent 
individuals built ties with the poor in communities across the country 
by sharing their wealth and by helping community members to solve their 
day-to-day problems. The political liberalization widened the room for 
political contestation, allowing Parliament, mass media outlets, and 
NGOs to assume prominent political roles.
    Amidst a rise in opposition activity in the early 2000s, especially 
after the establishment of the U.S. airbase in Manas, President Akaev 
began backtracking on his initial liberalizing path, however. His 
efforts to create a tamed parliament and ensure a managed transition of 
political power to his hand-picked successor threatened interests of 
the wealthy class and low-income communities in which the affluent 
elites invested. As a result, the powerful alliance of the wealthy 
class and low-income communities resulted in the Tulip Revolution in 
2005 and brought to power Kyrgyzstan's second President--Kurmanbek 
Bakiev--one of the leaders of the opposition movement.
    Having seized power in March 2005, Bakiev promised to introduce 
wide-reaching democratic changes. Nevertheless, by the end of his first 
term, he undid many of Akaev's initial policies that aimed at fostering 
harmonious inter-ethnic relations, ensuring balance of power among 
government branches, and maintaining a cautious foreign policy course. 
Bakiev relied on the security apparatus and the tamed judiciary which 
were controlled by his family members to suppress ethnic minorities, 
religious dissidents and political opponents. In a major change, the 
October 2007 constitution replaced single district mandate electoral 
system with party lists, allowing Bakiev's party Ak-Jol to win the 
December 2007 parliamentary election in a landslide with the help of 
the pliant government bureaucracy and weak judiciary. Having bolstered 
domestic control, Bakiev began to pursue a very dangerous foreign 
policy that pitted Moscow against Washington and other large powers.
    Bakiev's policies had some grave consequences for his own regime. 
First, with the alteration of the Akaev-era constitution and 
centralization of political power in Bakiev's hands, affluent 
politicians lost the incentive to share their wealth with and provide 
surrogate public goods to communities across the country which were 
already reeling from the gradual decline in the delivery of public 
goods by the state. Second, Bakiev's neglect of inter-ethnic problems 
emboldened various chauvinistic groups and deepened inter-ethnic 
tension. Third, Bishkek's indeterminate foreign policy course, as 
demonstrated by Bakiev's 2009 turnaround on the Manas airbase, 
alienated Bakiev's allies in Moscow. In February 2009, days after 
receiving a large financial package from Moscow, Bishkek decided to 
close the airbase. But when the U.S. government agreed to increase rent 
payment in June that year, Bishkek allowed the base to stay albeit 
under a changed status. And finally, Bakiev's decision to increase 
utility tariffs, a measure designed to improve cash flows to the state 
coffers, deepened discontent among Kyrgyz residents, especially in the 
Northern regions where winter lasts several months.
    In March 2005, it was an alliance of the wealthy and the poor that 
toppled an authoritarian regime. In April 2010, it was a combination of 
economic sanctions from Russia and protests by poor and unemployed 
residents in such northern towns as Naryn and Talas which had 
culminated in a violent ouster of an authoritarian ruler. Bakiev's 
political demise and the concomitant collapse of the country's security 
services opened a floodgate of pent-up ethnic tension created by years 
of biased government policy and prepared the ground for the inter-
ethnic clashes in June 2010.
    The opposition factions that formed the interim government after 
Bakiev's demise were not prepared to assume power. Lacking broad 
legitimacy and being driven by the survival instinct in an almost 
anarchic environment, the new authorities engaged in a number of 
chaotic and populist measures such as the demonization of Bakiev and 
his acolytes and reversal of punitive utility tariffs imposed by the 
previous regime.
    Although the new leaders recognized the strategic need to address 
the long-standing transitional dilemmas, they lacked resources and a 
sense of strategic direction. As a result, they got the sequencing of 
actions wrong. Despite various signals that simmering ethnic conflict 
was ready to explode in South Kyrgyzstan, the new Kyrgyz leaders 
preoccupied themselves with the division of political powers in 
Bishkek. As a result, when the ethnic conflict broke out in Osh in 
early June 2010, the authorities were utterly unprepared to deal with 
its consequences. Authorities in Bishkek had little if no control over 
government security services, let alone rampaging crowds. When their 
pleas for security assistance from the Russia-led Collective Security 
Treaty Organization were rejected, officials in Bishkek seemed to let 
the conflict to take its own course.
    The bloody conflict ended largely because the blockade of the 
conflict zones reduced the supply of food; and the rampaging crowds 
turned into hordes of looters. Rather than deal with the consequences 
of the conflict in a more effective way, the new leaders' attention 
again shifted to the distribution of political power. The referendum 
held days after the violent events, when wounds were still fresh, 
endorsed the parliamentary system. The December 2010 parliamentary 
elections enabled five parties, representing a variety of ideological 
persuasions, to occupy seats in Parliament.

Where might things end?

    Kyrgyzstan's new leaders have made attempts to resolve the long-
standing dilemmas, but such efforts have been half-hearted and 
ineffective. Let's consider the first challenge--the division of 
powers. The new system contains a number of ambiguities regarding the 
distribution of political powers; and it is now under pressure from 
various corners. According to recent polls, a majority of Kyrgyz 
citizens support a strong presidential system akin to Russia. Decision-
makers in Moscow have also been openly critical of Kyrgyzstan's 
transition to a parliamentary republic. Some influential politicians in 
Parliament appear eager to change the constitution again.
    Kyrgyz authorities' response to the second challenge--forming a new 
national identity--has been largely ineffective. One widespread 
assumption among citizens is that the June events firmly established 
the preeminence of the ethnic Kyrgyz in the political and economic 
spheres. The new authorities appear to be unwilling to challenge such 
assumptions in a resolute way, thus allowing chauvinistic and anti-
Semitic groups and media outlets to disseminate freely materials 
containing bigotry. Authorities have done little work in the area of 
reconciliation. Rather than deal with the legacy of the violence 
impartially and resolutely, according to one observer, the 
``provisional government's Soviet-style instinct was to try and sweep 
the unpleasant events under the rug and put forward a mantra of 
`friendship of the peoples.' '' This strategy is flawed and it 
resembles the one adopted by Kyrgyz authorities after the June 1990 
violence.
    There are serious flaws in government's responses to the third 
chronic problem--ailing economy. Kyrgyz officials' are engaging in 
economic populism as exemplified by the recent raises in public 
salaries and reversal of utility prices even at a time when the country 
is facing financial troubles (Kyrgyz debt has reached $2,5 billion, 
budget deficit is nearly 10 percent of the GDP) and its donors are 
hesitant to issue new loans. Leaders in Bishkek are turning a deaf ear 
to warnings about looming crisis while maintaining an illusion that 
foreign lenders will save the country.
    Finally, the Kyrgyz authorities are again following the footsteps 
of their predecessors in pursuing an indeterminate foreign policy, 
which led to the ouster of their predecessor. Relations with neighbors 
who are concerned about pernicious effects from instability in 
Kyrgyzstan are still tense. Recent unlawful attacks against Russian 
businesses in Kyrgyzstan have aggravated Bishkek's relations with 
Moscow. Some decision-makers in the Kremlin also suspect Bishkek of 
pursuing an exceedingly pro-Western policy. Meanwhile, Kyrgyzstan's 
Western partners are growing concerned about plans by some politicians 
to change the current system and restore a super-presidential 
arrangement.

Conclusion

    Kyrgyzstan finds itself at a crossroads again. The violent events 
in 2010 have taken their toll, but they also provide a new window of 
opportunity to learn the mistakes of the past and settle on a 
constructive path. The key lesson is that Kyrgyz leaders and citizens 
must have a very painful but much needed debate about their fourfold 
transition challenges before settling down on potential solutions. 
These solutions must include concerns of all citizens. If Kyrgyz 
leaders and citizens will succeed in finding such long-lasting 
solutions and will make every effort to stick to them, their country 
can become a model for stability and integration of ethnic groups for 
Central Asia and CIS. If they will fail, Kyrgyzstanis will set 
themselves again on the path to a violent revolution and a deadly 
inter-ethnic conflict.

    Dr. Alisher Khamidov is a Professorial Lecturer at the School of 
Advanced International Studies (SAIS) at Johns Hopkins University. He 
is an expert on Central Asia and Russia.
    He began his career as Director of the Osh Media Resource Center 
(OMRC), a non-profit, independent media association in southern 
Kyrgyzstan.
    He has also acted as the regional coordinator of the Central Asian 
Media Support Project.
    Before his Doctorate, he worked at Notre Dame University's 
Sanctions and Security Project, the NEH Summer Institute on Eurasian 
Civilizations at Harvard University and at the Foreign Policy Studies 
Program of the Brookings Institution.
    Khamidov has written a series of articles on religious and ethnic 
conflict in the Ferghana Valley and political developments in 
Kyrgyzstan and in Central Asia, and is a frequent contributor to 
Eurasianet and Transitions Online.
    He is published in a number of academic journals in Central Asia 
and North America.
    He received his Ph.D in Russian and Eurasian Studies from SAIS, 
Johns Hopkins University, an M.A. in International Peace Studies from 
the University of Notre Dame, and a B.A. from Osh State University, 
Kyrgyzstan.

                                 [all]



                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
